<html>
<title> - KNIVES, BOX CUTTERS, AND BLEACH: A REVIEW OF PASSENGER SCREENER TRAINING, TESTING AND SUPERVISION</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
    KNIVES, BOX CUTTERS, AND BLEACH: A REVIEW OF PASSENGER SCREENER 
                   TRAINING, TESTING AND SUPERVISION
=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 20, 2003

                               __________

                           Serial No. 108-117

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform




                   U.S. GOVERNMENT PRINTING OFFICE
92-440                       WASHINGTON : 2004
_______________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800, 
DC area (202) 512-1800 Fax: (202) 512-2250 Mail: stop SSOP, Washington, 
DC 20402-0001












                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
DAN BURTON, Indiana                  HENRY A. WAXMAN, California
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
DOUG OSE, California                 DENNIS J. KUCINICH, Ohio
RON LEWIS, Kentucky                  DANNY K. DAVIS, Illinois
JO ANN DAVIS, Virginia               JOHN F. TIERNEY, Massachusetts
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   DIANE E. WATSON, California
ADAM H. PUTNAM, Florida              STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia          CHRIS VAN HOLLEN, Maryland
JOHN J. DUNCAN, Jr., Tennessee       LINDA T. SANCHEZ, California
JOHN SULLIVAN, Oklahoma              C.A. ``DUTCH'' RUPPERSBERGER, 
NATHAN DEAL, Georgia                     Maryland
CANDICE S. MILLER, Michigan          ELEANOR HOLMES NORTON, District of 
TIM MURPHY, Pennsylvania                 Columbia
MICHAEL R. TURNER, Ohio              JIM COOPER, Tennessee
JOHN R. CARTER, Texas                CHRIS BELL, Texas
WILLIAM J. JANKLOW, South Dakota                 ------
MARSHA BLACKBURN, Tennessee          BERNARD SANDERS, Vermont 
                                         (Independent)

                       Peter Sirh, Staff Director
                 Melissa Wojciak, Deputy Staff Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
              Philip M. Schiliro, Minority Staff Director















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on November 20, 2003................................     1
Statement of:
    Berrick, Cathleen A., Director, Homeland Security and Justice 
      Issues, General Accounting Office; John DeMell, president, 
      Firstline Transportation Security; and James McNeil, chief 
      executive officer, McNeil Technologies, Inc., accompanied 
      by Mike Broida, site manager, Greater Rochester 
      International Airport......................................    48
    McHale, Stephen, Deputy Administrator, Transportation 
      Security Administration....................................    17
Letters, statements, etc., submitted for the record by:
    Berrick, Cathleen A., Director, Homeland Security and Justice 
      Issues, General Accounting Office, prepared statement of...    51
    Burton, Hon. Dan, a Representative in Congress from the State 
      of Indiana, prepared statement of..........................   112
    Cummings, Hon. Elijah E., a Representative in Congress from 
      the State of Maryland, prepared statement of...............   117
    Davis, Chairman Tom, a Representative in Congress from the 
      State of Virginia, prepared statement of...................     5
    DeMell, John, president, Firstline Transportation Security, 
      prepared statement of......................................    85
    McHale, Stephen, Deputy Administrator, Transportation 
      Security Administration, prepared statement of.............    21
    McNeil, James, chief executive officer, McNeil Technologies, 
      Inc., prepared statement of................................    96
    Ruppersberger, Hon. C.A. Dutch, a Representative in Congress 
      from the State of Maryland, prepared statement of..........    12
    Waxman, Hon. Henry A., a Representative in Congress from the 
      State of California, prepared statement of.................   114















    KNIVES, BOX CUTTERS, AND BLEACH: A REVIEW OF PASSENGER SCREENER 
                   TRAINING, TESTING AND SUPERVISION

                              ----------                              


                      THURSDAY, NOVEMBER 20, 2003

                          House of Representatives,
                            Committee on Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:45 a.m., in 
room 2154, Rayburn House Office Building, Hon. Tom Davis 
(chairman of the committee) presiding.
    Present: Representatives Tom Davis of Virginia, Shays, 
Mica, Souder, Platts, Murphy, Carter, Janklow, Blackburn, 
Kanjorski, Tierney, Watson, Van Hollen, Sanchez, Ruppersberger 
and Norton.
    Staff present: Melissa Wojciak, deputy staff director; 
Jennifer Safavian, chief counsel for oversight and 
investigations; Anne Marie Turner and David Young, counsels; 
David Marin, director of communications; John Cuaderes, senior 
professional staff member; Teresa Austin, chief clerk; Brien 
Beattie, deputy clerk; Allyson Blandford, office manager; 
Corinne Zaccagnini, chief information officer; Michael Yeager, 
minority deputy chief counsel; David Rapallo, minority counsel; 
Earley Green, minority chief clerk; and Jean Gosa, minority 
assistant clerk.
    Chairman Tom Davis. Good morning. A quorum being present, 
the committee will come to order.
    We are here today to examine a key aspect of airport 
security: passenger screeners. This is the committee's first 
hearing into airport security issues, but it is a good bet it 
will not be the last.
    There is no alternative but success in securing our 
Nation's air system. As such, it is critical that Congress, and 
this committee in particular, be vigilant in our oversight 
obligations. That is why last month this committee started an 
extensive review of the Transportation Security 
Administration's operations, with a specific focus on passenger 
and baggage screeners. This review was prompted by the 
discovery of weapons and other prohibited items on two 
Southwest Airline planes on October 16th, as well as the recent 
reports from the Department of Homeland Security's Office of 
Inspector General and the General Accounting Office that cited 
significant weaknesses in the testing and training procedures 
for TSA airport screeners.
    Approximately 1.8 million travelers a day pass through 
checkpoints at more than 400 U.S. airports. The daunting task 
of protecting America's transportation system could not be more 
critical in today's threat environment. The good news is that 
in just 2 years, TSA has made tremendous progress promoting 
security by hiring and training 48,000 Federal passenger 
screeners. The screeners are better paid and better trained, 
and we are safer today because of it. I don't think we should 
lose sight of that.
    TSA passenger screeners have seized significant numbers of 
prohibited items from passengers going through security 
checkpoints. But despite this fact and the realization that not 
all prohibited items will be detected at passenger checkpoints, 
these recent security breaches have highlighted possible 
weaknesses in the system that need to be addressed.
    In six separate incidents, beginning February 7, 2003, and 
ending September 14, 2003, Mr. Nat Heatwole, a 20-year-old 
college student, was allegedly able to get prohibited items, 
including box cutter blades, knives, and liquid bleach, past 
airport passenger screeners and onto aircraft. Notes 
accompanying the items he allegedly left on the aircraft 
indicated that the items were intended to test the TSA 
checkpoint security procedures. On September 15, 2003, TSA's 
Contact Center also received an e-mail message from Mr. 
Heatwole concerning the security breaches. However, the message 
was not delivered to appropriate TSA officials until October 
17, 2003, after some of the prohibited items had been 
accidentally found, and after TSA ordered 7,000 aircraft to be 
searched.
    The delay in identifying Mr. Heatwole's September 15 e-mail 
as an important message that required immediate action 
highlighted problems with TSA's Contact Center. The committee 
understands that TSA has identified the problems within the 
Contact Center and has modified procedures by which messages 
are handled at the Center. This last Friday I went on a tour of 
the Transportation Security Coordination Center, out in 
northern Virginia, which utilizes information from the Contact 
Center, the Federal air marshals and other sources to take 
action in cases of aviation security concerns. From what I saw, 
the Coordination Center stands ready 24 hours a day, 7 days a 
week to act on aviation emergencies, but it must receive timely 
information to take action. We look forward to hearing the 
steps TSA has taken to remedy the problem to ensure that future 
security-related messages like Mr. Heatwole's are immediately 
analyzed by TSA staff and that appropriate action is taken.
    I understand that Mr. Heatwole has cooperated fully with 
the TSA and FBI, and he has been forthcoming with this 
committee in sharing his intentions behind these security 
breaches. The public opinion of Mr. Heatwole's actions seem to 
range from ``hero'' to ``criminal.'' It is up to the justice 
system to determine the consequences of his actions. I 
personally believe we need to discourage this sort of vigilante 
behavior. It is counterproductive for TSA, law enforcement and 
the airlines to waste valuable time and resources on similar 
incidents when we need them to be looking for real threats. 
Again, we have internal tests going on every day from the IG, 
GAO, and other offices finding this. The results are being 
relayed to TSA. But I do think we should acknowledge that Mr. 
Heatwole's actions have provided us a chance to have a 
thoughtful discussion on improving passenger screening. 
Experience, no matter its cause or origin, is the best teacher.
    In addition to hearing about TSA's reaction to the Nat 
Heatwole incident today, we also have the opportunity to 
discuss recent government work to review TSA training, testing 
and supervision of passenger screeners. The investigation by 
DHS IG found that TSA written tests for potential passenger 
screeners on the operation of explosive detention system 
machines were designed to maximize the likelihood TSA employees 
would pass, rather than ensuring that only competent and well-
trained employees were responsible for passenger screening. In 
essence, they have been teaching to the test. More 
disconcerting was the DHS IG's covert testing of passenger 
security screening operations. According to press articles, IG 
investigators were able to bring knives, a bomb and a gun 
through Boston's Logan International Airport without being 
detected.
    The GAO report cited deficient supervisory training 
programs and a failure to collect adequate information on 
screener performance in detecting threat objects. The report 
also cited the need for recurrent training for passenger 
screening, to ensure that screener skills are maintained and 
enhanced as new security information becomes available. In 
addition, the GAO report found that Federal Security Directors, 
who are responsible for overseeing security at the airports, 
have expressed concern that they have limited authority to 
respond to airport-specific staffing needs. These needs include 
daily and seasonal fluctuations in passenger flow. We look 
forward to hearing more from GAO about their report during our 
second panel of witnesses.
    TSA has stated that new procedures for passenger screener 
training and testing are in the works, including new written 
tests to replace the tests criticized in the DHS IG report. In 
addition, specific training courses designed for screener 
supervisors are being developed to improve screener 
performance. We are anxious to hear about these new changes.
    There are currently five pilot program airports that use 
private companies to provide passenger screener functions. 
These private companies were responsible for developing and 
implementing training for passenger screeners prior to the 
Federalization of passenger screeners by TSA and therefore have 
significant experience in the business of training, testing and 
supervision. We are pleased to have representatives from two of 
the private pilot program airports, the Kansas City 
International Airport in Missouri and the Greater Rochester 
International Airport in New York, on our second panel. We look 
forward to their testimony and hope to hear about their 
relationship with TSA, suggestions for improvements with the 
new Federal work force, and how the pilot program has worked 
with regard to passenger screener training, testing and 
supervision.
    The committee is mindful that the holiday season has begun 
and that the traveling rush will inevitably result in longer 
lines at checkpoints. TSA has the immense task of maintaining 
adequate staffing levels for passenger screening over the next 
month and a half. At the same time, TSA passenger screeners 
will face additional pressure to process passengers quickly, 
despite the fact that they are not permitted to allow 
passengers into airport sterilized areas without resolving all 
possible threats identified in both passenger and carry-on 
baggage checks. But security measures at airports cannot be 
compromised. As travelers, we need to be prepared for rigorous 
security checks, and I hope that TSA can give us some advice 
today about how travelers can smoothly proceed through 
passenger screening checkpoints.
    We look forward to a constructive hearing today, keeping in 
mind that no system is foolproof. In fact, keeping prohibited 
items off a passenger plane is but one layer of a multi-layered 
aviation security strategy, which includes hardened cockpit 
doors, additional Federal air marshals, and armed pilots. The 
airlines have taken their own steps to increase the number of 
layers, by training their flight attendants in self-defense, 
for example. However, a chain is only as strong as its weakest 
link, and we are hopeful that our oversight of TSA passenger 
screener training, testing and supervision will improve overall 
aviation security.
    [The prepared statement of Chairman Tom Davis follows:]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


    Chairman Tom Davis. Is there any Member on the other side 
wishing to make an opening statement? Do any other Members wish 
to make opening statements?
    We will proceed to our first panel, Steve McHale, Deputy 
Administrator of TSA. It is our policy here to swear in 
witnesses. If you will rise and raise your right hand.
    [Witness sworn.]
    Chairman Tom Davis. Welcome. Thank you for being with us. 
Before you go on, I am going to recognize Mr. Ruppersberger for 
just a quick statement. The gentleman from Maryland.
    Mr. Ruppersberger. Thank you, Mr. Chairman. I do represent 
BWI Airport, and one of the issues--I have to leave, 
unfortunately, to go to a funeral--but when TSA sits back and 
looks at really where we are, what we are accomplishing, it 
seems to me that what we have to analyze is the outsourcing, 
the continued outsourcing we are talking about. Is that as 
relevant as the actual training and making sure that we adjust 
the formula for all of our employees or contractors, the 
formula for what is safety? It has been said you can't have 100 
percent, but we should try to reach that goal. That is really 
an issue I would like to put out.
    Thank you, Mr. Chairman.
    Chairman Tom Davis. Thank you very much. We will try to 
make sure that is answered.
    [The prepared statement of Hon. C.A. Dutch Ruppersberger 
follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairman Tom Davis. Also I want to recognize that the 
Metropolitan Washington Airport Authority is in the room, and 
other airport authorities are here, too, because I think we all 
share the concerns here and want to make sure we are up to 
snuff for the holiday season. As I said earlier, we are much 
safer today than we were a couple years ago, and despite what 
we see with some of the headlines at this point and the fact it 
is not a foolproof system, it is much improved.
    Thank you very much. Go ahead.

      STATEMENT OF STEPHEN McHALE, DEPUTY ADMINISTRATOR, 
             TRANSPORTATION SECURITY ADMINISTRATION

    Mr. McHale. Good morning, Mr. Chairman and Members. 
Yesterday was the second anniversary of the legislation that 
created the Transportation Security Administration, and I would 
like to take this opportunity to inform the committee of the 
major improvements in civil aviation security since the 
creation of TSA and of our plans for continuous progress in the 
months ahead.
    Mr. Chairman, as you noted, I do have great confidence in 
telling you that the civil aviation sector is much more secure 
today than it has ever been, and it will be more secure 
tomorrow than it is today. TSA and its many partners, the 
airport authorities, the airlines and all of the vendors and 
contractors, our contract screening companies and others, have 
built an entirely new system of systems for aviation security 
that is reflected on the chart over here on the left, which I 
believe you also have copies of in front of you. This system of 
systems does not rely on any one component. There are many 
layers of our system of systems as illustrated on the chart, 
but we have to always recognize that we cannot rely on any 
layer to have a zero failure rate. If one layer is breached, we 
must have other layers that will have to be overcome as well, 
and that is our goal in building all the way through these 
rings of security.
    Since September 11, our ability to gather, assess and share 
intelligence has dramatically improved. TSA keeps an around-
the-clock intelligence watch tied to all national intelligence 
and law enforcement intelligence programs and maintains direct 
connection with TSA's field operations and with the security 
centers of major transportation stakeholders. That is perhaps 
the most important relationship, the to-and-fro of information 
between the private entities and the government. TSA's 
Transportation Security Coordination Center provides tremendous 
capability for prevention, response and mitigation. I am 
pleased, Mr. Chairman, that you had the opportunity to visit 
TSCC in person, and we invite other Members to tour those 
facilities as well.
    We have made major improvements in perimeter security, 
conducted background checks on over 1 million air carriers and 
airport employees with access to secure and sterile areas of 
the airport, and implemented technological solutions to assist 
screeners with detecting threats. On September 11, there were 
only a few Federal Air Marshals. Today thousands are deployed 
on high-risk domestic and international flights. Every month 
Federal Air Marshals fly more missions than in the whole 20-
year history of the FAM Service prior to September 11. Aircraft 
serving the United States are equipped with new, hardened 
cockpit doors. By the end of the fiscal year, we expect to have 
trained and equipped thousands of pilots who volunteered for 
Federal Flight Deck Officer duty.
    It may be valuable, Mr. Chairman, to step back and look at 
all that has been accomplished in a very short time. The chart 
on display tells a simple factual story of security screeners 
then and now. Before September 11, contract screeners had no 
national program of operating procedures or standards. Today 
Federal screeners and our private contract screeners meet 
consistent national protocols and must be annually recertified. 
TSA screeners receive much more robust and comprehensive 
training, and before September 11, screener attrition rates 
were 100 to 400 percent a year. Today, the current attrition 
rate at airports with TSA screeners is just 13.6 percent.
    With all this in place, air travelers have good reason to 
feel more secure, but I must caution that threats to aviation 
still remain, and we must keep our security focused. 
Intelligence reporting tells us that commercial aviation 
remains high on the terrorists' target list. Last month alone 
we intercepted 564,000 prohibited items at the Nation's 
airports, including 1,900 box cutters and 41 firearms. We are 
surprised that we continue to find such large numbers of 
prohibited items carried by travelers and actively work with 
our partners in the aviation industry to continue to educate 
passengers.
    As you are aware, there have also been highly publicized 
incidents of smuggling prohibited items onto aircraft. These 
incidents are the subject of ongoing investigation. But let me 
be clear that TSA is well aware that our system has 
vulnerabilities, and as we identify them, we take swift action 
to address them.
    TSA has changed the procedures at its Contact Center so 
that e-mail, telephone calls and other communications are 
filtered for security content, reviewed by a security analyst, 
and, when appropriate, transmitted to the TSCC and other units 
for action. We have changed procedures throughout TSA so that 
all personnel are prepared to identify, document and report 
potential threat communications.
    TSA recently strengthened the preflight inspection 
requirement for passenger cabins, increasing the thoroughness 
of the search. In addition, the airlines are required to 
contact the local Federal Security Director [FSD], and local 
law enforcement immediately if anything suspicious, dangerous, 
or deadly is located.
    TSA conducts an aggressive covert testing program to 
challenge screeners to detect threat objects at screening 
checkpoints and in checked baggage using simulated terrorist 
threat devices and techniques based on the latest intelligence. 
We are conducting these tests at three times the rate of the 
old FAA Red Team testing. We use the results of these tests to 
provide specific feedback to screeners and FSDs at airports. 
The results also drive change and improvement in our standard 
operating procedures, training and technology. We are 
constantly increasing the sophistication of these tests to 
ensure that our screeners are prepared to counter evolving 
threats to aviation security.
    If our Red Teams do not get items through the checkpoints, 
they are not trying hard enough. We challenge them to try to 
get items through the checkpoint, and then we challenge our 
screeners to try to stop them from getting through. It is a 
constant push and tug in the testing process to constantly 
improve our work force.
    TSA conducted a screener performance improvement study to 
determine the root causes for deficiencies in screener 
performance found in covert testing. Well before the recent 
incidents, TSA was already preparing a plan to enhance screener 
performance. The nine elements of our short-term screening 
improvement plan are highlighted on this chart that is being 
displayed now.
    Under TSA's plan, we will increase the number of 
unannounced covert tests at airports to assess system and 
airport-specific screening performance. Airports with below-par 
performance on covert tests will receive special training. 
Teams of industrial engineers, trainers, performance 
consultants and technology and management experts will work 
with the FSDs to design and implement solutions.
    We are also enhancing recurrent screener training and 
supervisory training. Recurrent training is needed to maintain 
and enhance the skills of screeners, particularly in the area 
of x-ray image interpretation, the search of persons and the 
inspection of property. Supervisory training will enhance 
leadership skills in our work force and provide the advanced 
technical skills needed to better oversee the screening process 
and resolve alarms.
    With your permission, Mr. Chairman, I would like now to 
show you a 30-second clip from one of an exhaustive series of 
videos we are going to be using in training.
    [Videotape played.]
    Mr. McHale. A major initiative to improve screener 
performance and accountability is enhanced through our Threat 
Image Protection [TIP] system. TIP superimposes threat images 
on x-ray screens during actual operations and records whether 
or not screeners identify the threat object. This tool is 
excellent for evaluating the skills of each individual screener 
so they can focus directly on the areas needing skill 
improvement and taking disciplinary action where necessary. By 
regularly exposing screeners to a variety of threat object 
images, TIP provides continuous on-the-job training and 
immediate feedback. Today we have over 1,400 TIP-equipped x-ray 
machines in place around our Nation's airports, and every 
checkpoint lane will be equipped with TIP by the summer of 
2004. TIP and other similar testing ensures that our screeners 
have the right set of practical skills and are an appropriate 
complement to our multiple-choice testing, which ensures that 
screeners are well-versed in procedures and process.
    Technology is an absolute necessity in detecting threats. 
TSA has a robust research and development program to help make 
our operations more effective, more efficient, less time-
consuming, and less costly. Extensive cooperation with the 
private sector in the development of technology is a hallmark 
of our program. TSA is testing two explosive trace detection 
portals that analyze the air for explosives as passengers pass 
through them. We are continuing to work on identifying the next 
generation of explosive detection equipment for use in 
screening carry-on and checked baggage.
    In the aftermath of September 11, the screener work force 
was Federalized to reassure the traveling public and to provide 
uniformly high training and standards for screeners by 
leveraging the resources of the Federal Government. TSA's 
private screening pilot program provides a basis for comparing 
the effectiveness of both Federal and contract screening. In 
either case, TSA will continue to closely supervise the 
screening operations and ensure that uniform standards for 
screeners and equipment are maintained. We also are working 
with the contractors to solicit creative and innovative ideas 
for security. We have not denied any formal request for 
additional operational flexibility that is permitted by law.
    TSA also is moving forward toward implementation of the 
second generation of Computer-Assisted Passenger Prescreening 
[CAPS] II. CAPPS-II will greatly enhance our ability to 
identify terrorists and other high-risk individuals before they 
board commercial airplanes. It will help us focus our resources 
on those that pose a higher risk to aviation security than the 
general population, while reducing unnecessary screening for 
low-risk passengers. We can and will achieve this benefit while 
incorporating robust privacy protection measures for the 
traveling public.
    Another area in which we are making significant steps 
forward is in air cargo authority. Just this week Secretary 
Ridge announced the first building blocks in TSA's 
comprehensive Air Cargo Strategic Plan. Air carriers will be 
required to randomly inspect cargo on passenger aircraft and in 
all cargo planes on both foreign and domestic flights in the 
United States.
    As we build new and strengthen existing security measures, 
we must always keep in mind the customers, particularly the 
traveling public, and as we start this busy holiday season with 
the pickup in air travel, TSA is working hard to minimize the 
long lines we normally see this time of year. Air carriers and 
airports have been very cooperative in pre-holiday planning to 
keep lines moving as quickly as possible. Airport and airline 
personnel are stepping up to assist in non-certified positions 
in airports when needed so that certified personnel can focus 
on screening. Vendors and concessionaires are working with us 
to schedule airport deliveries at off-peak times.
    But, Mr. Chairman, as you noted, travelers can avoid the 
secondary screening process by preparing for takeoff and save 3 
minutes by placing loose items in a larger carry-on, taking 
children out of strollers as they approach the checkpoint, and 
by removing coats before they go through a checkpoint. TSA has 
worked hard to reassure travelers by creating many hurdles in 
the path of a potential terrorist, and we are continually 
evolving our security systems to ensure we are always a step 
ahead.
    Mr. Chairman, I would be glad to answer any questions you 
and the committee might have.
    [The prepared statement of Mr. McHale follows:]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Tom Davis. We have a series of three votes. I will 
try to get a couple out of the way. I am going to start with 
Mr. Platts.
    Mr. Platts. Thank you. I appreciate your testimony and the 
testimony you provided and the challenge your agency has. I do 
realize it is one that is pretty formidable, and it is an 
ongoing effort to try to keep up with the times of what the 
threats are.
    One of your statements, if you could expand on it, jumped 
out at me. In the last year and a half, 1,500 firearms, 54,000 
box cutters. What is defined as a box cutter? What is included 
in that 54,000? That just seems like a staggering number, given 
the box cutters being used in the terrorist attacks.
    Mr. McHale. There are two common kinds we find. Usually it 
is either a handle with a fixed razor blade in the handle for 
slicing, or one with a retractable razor blade. But that is the 
kind of implement we regard as a box cutter. It has a razor 
blade in it usually.
    Mr. Platts. Is there a common explanation of why somebody 
has this, given the times we are in?
    Mr. McHale. That is a question I ask all the time. The 
answer is almost always, ``I forgot I had it.'' A lot of people 
actually do carry box cutters as an alternative to a penknife 
with them. A lot of people carry it for work and other things. 
They are used to carrying it all the time. So they do say, and 
I think perhaps often truthfully, that they forgot they had it. 
It does strike me, given all the reporting on September 11, 
given everything that has been going on, as remarkable that 
people getting on an airplane don't think about what they have 
in their pocket.
    Mr. Platts. Is there any consideration at TSA of working 
with the airlines, when you make a reservation, saying, ``Is 
there anything else we can help you with today,'' of having a 
one-sentence reminder that knives, box cutters, guns--a pretty 
obvious statement to me, but apparently 54,000 occurrences, it 
is not as obvious as I guess I would think it should be.
    Mr. McHale. The airlines and the airports have been very 
cooperative with us. They do help us with announcements with 
the public address system, placing of signage. The airlines are 
generally a little concerned about additional statements to 
their interaction with passengers just because of time 
considerations. But they have been very cooperative with us in 
trying to find ways to communicate this message in a way that 
works for them as well as us.
    Mr. Platts. I thank you for your testimony and the efforts 
of your Department and agency.
    Chairman Tom Davis. Thank you very much.
    Mr. Kanjorski, we have 6 minutes in the vote.
    Mr. Kanjorski. I represent the Wilkes-Barre-Scranton 
airport. Recently you had a RIF announced where you are 
reducing 47 full-time employees to 26 employees, 2 full-time 
and 24 part-time. I don't know how we expect 24 people to live 
on 20-hour-a-week work, so it seems to me the quality and the 
availability of those workers is going to fall precipitously. 
Most of all, it sends an indication that this is the type of 
airport that a terrorist should really go to because the 
chances are that they are going to have less than professional 
screening capacity and a significant turnover in employees, if 
you are going to have 24 or 26 as part-time, 20-hour-a-week 
employees.
    The second part of my question is, I understand you are 
contacting programs to get additional screeners, one just at a 
kiosk outside of northern Virginia here, and it seems to me if 
you are RIF-ing trained employees now at some airports, you 
should have more than enough to relocate them to new 
facilities. Why isn't this happening?
    Mr. McHale. We have been reducing the number of screeners 
following the direction from the Congress in our appropriations 
act. But we have--just to answer your second question first, we 
actually have quite an aggressive program for relocation, 
giving displaced screeners the first opportunity to apply for 
vacancies at different airports around the country. Obviously, 
this involves moves, and we do find a lot of people don't want 
to do that. They are committed to the area in which they live. 
But where an employee is willing to relocate, we want to work 
with them to achieve that.
    On the first part, we actually have found good quality 
people who are willing to work part time. It fits into other 
schedules. So we haven't had a quality decrease as we have gone 
out to seek part-time screeners.
    The big question and the hard question for us really 
throughout the last 6 months as we have gone through this 
downsizing, rightsizing, at some airports it was actually an 
increase, but largely across the country it was a decrease--the 
big challenge we have had is working with our screeners and 
explaining to them why we are going to a lower level.
    I don't know the details of Wilkes-Barre-Scranton. I can 
say, though, that at a number of regional airports there are 
often large gaps during the day in which there are not flights. 
Often there are a couple of morning flights and a couple of 
evening flights, maybe one at lunchtime, one or two, whatever 
it might be. The problem with that is with full-time employees, 
we often have them literally waiting for 2 or 3 hours for 
another plane to come in and really nothing for them to do in 
that time. So we have looked at split-shifting and done that at 
some places where they work 2 or 3 hours in the morning or 3 or 
4 hours in the evening. We tried to accomplish that, but the 
trouble with the peaks and valleys, just the nature of the 
aviation industry, is we need people for 3 or 4 hours at a 
time. That is why part-timing works better.
    Mr. Kanjorski. Could you give me a report back, 
particularly on the Wilkes-Barre-Scranton Airport and its 
conditions?
    The last situation, these 24 part-time employees, are they 
going to have any benefits, or by going to part time are they 
losing benefits and health care and all of that?
    Mr. McHale. They will have benefits.
    Mr. Kanjorski. They will maintain their benefits?
    Mr. McHale. That is right. They will be proportionate to 
the number of hours they work, but they get their benefits. In 
terms of retirement, they accumulate that.
    Mr. Kanjorski. And health care.
    Mr. McHale. And health care.
    Chairman Tom Davis. Thank you very much. We are going to 
recess. We will be back in about a half hour.
    [Recess.]
    Chairman Tom Davis. We will start the questions with the 
gentleman from Florida, who is, as you know, very involved with 
this in his other committee assignment as well and has taken a 
leadership role in this. Mr. Mica.
    Mr. Mica. Thank you, Mr. Chairman; and I'm glad that you're 
conducting an oversight hearing on these issues that are so 
important to the flying public. Let me just make a couple of 
comments, and then I'll sort of transform this into a question.
    But, as you may know, Mr. Chairman, I asked the GAO to 
conduct a preliminary--well, to conduct a review of some of the 
progress that we've made with our airport screening force, this 
small army that has been put together. The initial response was 
critical. Some of the public comments are in this--some of the 
non-public comments to the performance are classified, but I 
can tell you that the system is far from foolproof, as is 
demonstrated by the college student.
    What concerns me is two things: first, that we have not 
made much progress, other than hiring an army of personnel, in 
really being able to detect threats and secure the safety of 
our passengers.
    I see Mr. McHale is here, and I brought sort of a little 
array of some common items. What I want to do for the committee 
and for the record is to illustrate that this system that we 
have is easily penetrated. While part of the responsibility for 
not implementing steps to deal with this lies with TSA, part is 
also the responsibility of Congress.
    The technology that we have at our airports today is 
basically, for the most part in passenger screening and 
screening passenger luggage, is 1950's x-ray technology. Here's 
a plastic box cutter. That equipment will not detect this 
plastic box cutter. If it had a blade that was non-metallic, 
the blade could be put in some other recess. So it's easy to 
get through.
    I put $50 million in the original TSA legislation 
authorized and, unfortunately, Mrs. Murray from the State of 
Washington--Senator--diverted part of that to a project for her 
State. So it wasn't TSA's fault to not develop technology that 
would detect this type of box cutter, which you can--I could 
still take this through Washington National or any airport 
right now. Their technology will not detect this.
    Then if you take bleach, common household bleach, and I put 
it into this--I can use that to--as a weapon, carry it on any 
aircraft, and it is not detectable, use it against aircraft 
personnel. There's no equipment that we have that will detect 
that. This looks like a bottle of wine, but I've actually 
filled it with flammable material; and, of course, if I had a 
handkerchief, it makes a great fuse. Here's--while we ban--
we've confiscated things like fingernail clippers, here's a 
lighter that can create an incendiary device to do a great deal 
of damage, if not take down an air craft.
    We put $70 some million in for advanced technology, $75 
million, I believe it was. TSA turned back all but $62 million 
in the fiscal year that just ended for salaries. So we don't 
have equipment or technology that will really look at any of 
these threats.
    And I haven't even gotten into explosives. I didn't bring 
any Play-Doh that would simulate explosives. But we have almost 
no technology that would detect explosives strapped with duct 
tape around a passenger such as Richard Reid did, but he did it 
very expertly, concealed in the heels of his shoes. So I think 
that this young man, while he may have violated the law, did 
hopefully awaken us to the need to move forward.
    Now the good news is there's some $200 million to get to 
the next step of technology that will analyze matter and will 
also determine what is in the contents, if it's liquid or other 
material. Also, there is technology I've seen that will deter--
can look at shapes and other dangerous items. So we're far 
behind. We've created a multibillion dollar mirage. You can 
hire 200,000 screeners, they can be private or they can be 
public, and we're still at great risk. The good news is we have 
secured cockpit doors. We have armed marshals on many of the 
aircraft, and we've also allowed pilots to be trained to defend 
their aircraft and passengers.
    But we need to go much further. This isn't--this little 
display is just a small sampling of what can be done, and we 
know terrorists as recently as this morning have shown that 
they have very destructive intentions. Why this is important is 
that if we take another hit with a commercial aircraft it not 
only will devastate the aviation industry but also devastate 
our economy. So TSA has done a good job in ramping up an army. 
They have not done a good job in creating the technology 
necessary to detect these threats.
    So the only question I have, Mr. McHale, is how are we 
coming on the development of technology to deal with some of 
these threats?
    Mr. McHale. I agree with you completely that the technology 
we're using is somewhat better than September 11 but not a lot. 
It is the same type of technology. We've replaced all the metal 
detectors with the latest generation, but it is still the pre-
September 11 x-ray and metal detection technology; and it is a 
technology that was developed to detect firearms, large bombs, 
large knives. We're trying to use it--and we use it with some 
success--but we're trying to use it to detect much smaller 
items today. We do need to improve the technology and improve 
the equipment that we have for our screeners.
    We've made, actually, I think, substantial progress in the 
development of explosive detection portals that will detect the 
explosive vapors in the air around passengers as they pass 
through the portal. I'm hoping that we will be able to deploy 
some of those in a prototype to try to test them out in the 
operational phase in the not-too-distant future and then move 
forward to getting them throughout the system. That will 
certainly help with the belt of explosives and that kind of 
thing that a passenger might carry through on their person.
    Some of the technology similar to that could be available 
also to help us with explosive detection in carry-on baggage. 
We're looking at that. We have problems with sizing that for 
the space and making it operational. The technology is there. 
Making it fit into the operational environment and the speed 
with which we have to deal in the operational environment, the 
equipment is just not there yet.
    We have some very promising technology that we may deploy 
very shortly that will help us with one of the items that the 
General Accounting Office displayed to your committee, sir, and 
will help us actually look inside some of those items without 
having to remove them from the passengers. So that may be very 
helpful to us.
    We are constantly trying to figure out how to match the 
technology to the emerging threat, and you are correct that the 
threat changes, and the threat has changed dramatically in the 
last couple of years, and we need to continue to find new 
technologies. Perhaps the biggest challenge we do have--there 
are a lot of good ideas out there, but getting them 
operationalized into the airport setting is often a really big 
hurdle.
    Mr. Mica. Well, again, Mr. Chairman, I'm very concerned 
about the lack of progress. When they turned back this year 
some $60 plus million of $75 provided for getting us to the 
next stage of technology, using that on personnel is not 
acceptable. We will never address the terrorist threat. You 
cannot deploy enough screeners and individuals to deal with 
this threat unless you have the latest technology.
    Finally, one of the things that disturbs me in this 
incident--and I'm glad again that we have a chance to look at 
this--is this young man also notified TSA, and TSA failed to 
act. Now one of the things that we put in the TSA bill was we--
and as far as our screening employees and others involved in 
this, we did not protect them with the protections of Title 5, 
Civil Service protections. So I'd like to know, has that--have 
those individuals been held accountable or have they been 
elevated to some higher position, which is sometimes the custom 
in our Federal agencies? But there are specific individuals who 
had information about the threat or the actions of this 
individual and did nothing about it. What's the status?
    Chairman Tom Davis. Can I just interject there? Your time's 
up, Mr. Mica, but we recognize your role over on the other 
committee on this. This may be something, because it is a 
personnel action, that you might want to communicate with him 
individually on. I think you need to know that, but I----
    Mr. McHale. I'd be happy to do that.
    Chairman Tom Davis. All right. Go ahead. Any way you want 
to do it. If you feel comfortable----
    Mr. McHale. I will communicate with you about the personnel 
actions taken off the record. But what I can say is that we did 
set out, one, to develop a system. We get a large number of e-
mails into that system. It can take us some time to review 
those e-mails and respond to them. So we've developed a system 
to filter out and send up for review immediately any kind of 
threat information that we find. So we send that immediately to 
an intelligence analyst and security analysts to take a close 
look at to identify the threat if there is threat information 
in that and then to refer it to our operational side to take 
immediate action, including referral to the FBI or whatever 
else we have to do to deal with it. It was obviously a major 
concern to us when it came to my attention on October 17 that 
we'd had that e-mail since September 15, and we immediately 
took steps to correct that. We've instituted training both for 
the Contact Center--they've all been trained--and also for all 
TSA employees, not only to recognize potential threat 
information but to act on it and to know how to act on it and 
where to send it to. The Contact Center was relatively new. It 
was set up for consumer affairs, but it should have recognized 
and should have been set up to recognize that it could receive 
that kind of threat information, and we've taken steps to 
address that.
    Chairman Tom Davis. OK. Thank you.
    Mr. Mica. Thank you, Mr. Chairman.
    Chairman Tom Davis. Thank you.
    Ms. Norton.
    Ms. Norton. Thank you very much, Mr. Chairman.
    Thank you for your testimony, Mr. McHale. I'm also a member 
of the Aviation Subcommittee and, of course, have followed your 
work. As a result, I have followed your work very closely.
    The recent transportation bill passed in the Congress took 
away from the TSA an issue that the chairman will be as 
interested in as I am involving this particular region, and 
that is that, of course, it's the capital of the United States, 
major business area, national capital, world capital, and you 
can't bring a charter plane here. You can bring it to New York 
where September 11 occurred. You can bring it to Dulles out of 
which the plane that landed at the Pentagon came. But you can't 
do it in D.C. I don't know what kind of message we were sending 
out, whether the message was we're scared, we're incompetent. 
But I have to give a great deal of credit to the chairmen of my 
committees, including the one you just heard from, because what 
we now have in that bill essentially takes it from the 
Transportation Security Administration, and I want to 
understand what your role will be, if any.
    The bill says the Secretary of Homeland Security shall 
develop and implement a security plan to permit general 
aviation aircraft to land and take off at Ronald Reagan 
National Airport. It says the Administrator of the FAA shall 
allow general aviation aircraft that comply with the 
requirements, etc., of the security plan to land here. It even 
says that the President, if he suspends the security plan, has 
to give the reasons for it to Congress within 30 days.
    I mean, this tells you a lot about how fed up we are with 
having general aviation taken from the capital of the United 
States. Now I'm not blaming the TSA for this. In fact, we 
believe that the FAA prepared a plan and that the security 
types essentially become the decisionmakers in matters like 
this. I would like to know, to what extent will the TSA be 
involved, particularly given the role you have had with 
commercial aviation?
    Mr. McHale. That provision, I believe, is in the FAA 
reauthorization bill.
    Ms. Norton. It's the FAA reauthorization.
    Mr. McHale. It's not quite passed yet but is, presumably, 
about to be passed in Congress, and we're certainly expecting 
it. We've worked with general aviation around the country to 
develop security programs.
    Ms. Norton. So you all have done it elsewhere and you are 
going to do it here.
    Mr. McHale. We definitely have it elsewhere in the country, 
and we will work with them to establish an appropriate plan and 
move that forward. I know you've had the intelligence briefings 
on the National Capital threat and----
    Ms. Norton. You know, if I may say so, just for the record, 
the intelligence briefings were--if this is the way we do 
intelligence in this country, then I tell you we all ought to 
get under our tables and not come up from a long time because, 
essentially, the intelligence briefing was your worst-case 
scenario. You know, if in fact the world--if in fact everything 
fails, if we are incompetent enough so that we don't know how 
to protect those things, then maybe some monument or maybe even 
the Capitol or some other such structure will be hit.
    If anything, sitting in there was the chairman, from whom 
you just heard, after that briefing which occurred about a year 
ago, this is what you get. That's just how unconvincing dealing 
with security on a ``the-sky-is-falling'' basis will get you in 
a free society. What it means is you ought to close down not 
only commercial charter or general aviation, you'd better close 
down a lot more if that's the way we go about security.
    Mr. McHale. Well, TSA has always taken its mission very 
seriously; and its mission is not to shut down aviation, not to 
shut down transportation----
    Ms. Norton. That's why we want you involved, because you 
have the only experience in this, Mr. McHale.
    Mr. McHale [continuing]. But in fact it is to protect the 
freedom and movement of people and commerce. And that mission 
statement, I think, carries a lot of meaning and lot of 
balance.
    Ms. Norton. So you can assure me that, although we have 
taken this from the Transportation Department, that TSA will be 
involved.
    Mr. McHale. We will continue to be involved, along with, 
obviously, providing advice to the Secretary as he proceeds.
    Ms. Norton. Mr. McHale, let me ask you to clarify very 
serious allegations that have been made. We simply want to know 
what the real deal is. It concerns the No-fly List. There have 
been now repeated allegations by anti-war activists that they 
are being targeted for scrutiny when they--because they have 
exercised their first amendment rights, that somebody has their 
names. Does the TSA have any records as a part of its No-fly 
List of individuals who have engaged in protests or criticize 
the government? Or do you have any way to find out who has 
engaged in protest activity in criticism of the government? Do 
you seek that information at all as a part of your work with 
the No-fly List?
    Mr. McHale. Criticizing the government is not a basis to 
get on the No-fly List, and there is no one on the No-fly List 
as the basis of criticizing of the government.
    Ms. Norton. Or for engaging in demonstration of some kind?
    Mr. McHale. What we look for is someone who has threatened 
civil aviations, has been a terrorist. And obviously--or has 
been--is associated with terrorists. Such--I mean, I want to be 
careful how I answer this because I--we do not put somebody on 
the list because they protested, but I don't want to say that 
someone who is associated with the terrorists may not have also 
protested. But you have to be associated with a terrorist or 
you have to be a terrorist or a threat to civil aviation. Those 
are the kinds of things that we look for to put somebody on the 
No-fly List.
    I've read the various newspaper allegations of these 
individuals. None of the activities that they cite are--provide 
any basis to put them on the No-fly List, and they would not be 
on a No-fly List on that basis.
    Ms. Norton. I appreciate that assurance.
    One more question, if I might. I notice in your testimony 
on page 3 in speaking about the October 16 incident at 
Southwest Airlines, you found two types of prohibited items. 
One of them, besides the box cutters that everybody talks 
about, was liquid bleach secreted in a suntan lotion bottle. 
This leads me to ask you to be concerned about biological 
substances, chemical substances. Do we have any way to 
protect--are we even looking to protect against chemical 
substances, biological substances that could do harm on an 
airplane?
    Mr. McHale. Let me say yes to that, but let me offer an 
off-the-record briefing on it, if I could, or a closed session 
briefing.
    Ms. Norton. I think we need one on that, particularly given 
this incident.
    Chairman Tom Davis. OK. Thank you very much.
    Mrs. Blackburn, you have a question I understand.
    Mrs. Blackburn. Yes, thank you, Mr. Chairman; and thank you 
to our witness for your patience today as we are up and down 
and about. I do have a couple of questions for you, and I would 
like to really focus on some of the employee personnel 
situations with you.
    I think one of the biggest complaints we get in our office 
is from people who go to one of the airports in our district 
where there are tremendously long lines. They are running late 
for a plane. There are TSA employees who are standing around 
and there are screening areas that are not open, and so they 
are left to stand and just steam. And the attitude of many of 
the employees is, I guess you would say almost disrespectful. 
They're not anxious to explain why there may be a delay or if 
there's a problem with equipment or equipment not working. So 
we hear a lot about that in our offices.
    What I'd like to do is ask you how many total employees do 
you have right now?
    Mr. McHale. We have approximately 40--between 47 and 48,000 
screeners on board, and then we have about another 8,000----
    Mrs. Blackburn. And qualifications required of those 
screeners? Do you have something you could send to my office 
that would list the qualifications necessary?
    Mr. McHale. Yes, it's actually set out very specifically in 
the Aviation and Transportation Security Act, what they have to 
do.
    Mrs. Blackburn. And education?
    Mr. McHale. It includes at least a high school education or 
experience as a screener.
    Mrs. Blackburn. But no experience necessary in any kind of 
law enforcement?
    Mr. McHale. No, although there is a preference built into 
the statute for that kind of experience as well as military 
experience.
    Mrs. Blackburn. And how heavily do you weight that 
preference?
    Mr. McHale. I'm sorry?
    Mrs. Blackburn. How heavily do you weight that preference?
    Mr. McHale. It gives them I believe a--pushes them to the 
top of the line, but I don't actually know what the weighting 
is on that.
    Mrs. Blackburn. OK. And then could you provide that answer 
to me, please?
    Mr. McHale. Absolutely.
    Mrs. Blackburn. Thank you.
    OK. As you look at your recertification of these 
employees--let me back up a minute. When you train them, then 
you're putting them through 40 hours in the classroom and 60 
hours on-the-job training before they're put behind the screen.
    Mr. McHale. That's correct. About 44 hours in the classroom 
and 60 hours on the job.
    Mrs. Blackburn. OK. Thank you.
    And then your recertification, how much time will they 
spend going through this process and what is your expected cost 
each year of your recertification?
    Mr. McHale. There are three parts of the recertification. 
There's a sort of a check on their current knowledge of the 
standard operating procedure. There is a review of their 
techniques in actually performing the screening, and then there 
is a multiple----
    Mrs. Blackburn. OK. Just a minute. Did you just say 3 
years?
    Mr. McHale. Three parts, I said.
    Mrs. Blackburn. Three parts.
    Mr. McHale. Three parts. The first part is essentially a 
test of their knowledge of the standard operating procedure. 
The second is a review of their techniques and conducting an 
actual screening. The third is image mastery. They look at a 
computer and have to identify threat images on that. That 
basically requalifies them in all the skills they need to be a 
screener.
    I do not know the annual cost of that. I can get that for 
you. The test is usually administered in those three parts 
separately so we do not disrupt the screening schedule that 
much. So that can actually take over a period of weeks to 
complete the recertification. We will have recertified every 
screener by March 1st next year, most of them well before that.
    Mrs. Blackburn. OK. Thank you.
    Now are you in the process of developing a separate system 
for airports that want to opt out of the Federalized program 
and go to a private program?
    Mr. McHale. The testing and training procedure for the 
screeners will be the same. We are, however, looking toward 
November 19, 2004, to set up the process. We actually are doing 
a complete evaluation at this point. We've just hired 
BearingPoint as our contractor to help us evaluate the contract 
screeners versus the Federal screeners and the contracting 
system versus the Federal system. So that process works 
through----
    Mrs. Blackburn. Is BearingPoint going to develop your 
benchmarks on that or will GAO do that for you?
    Mr. McHale. BearingPoint will do that.
    Mrs. Blackburn. BearingPoint will do that?
    Mr. McHale. I think GAO is doing a related study, and we'll 
certainly take that into account.
    Mrs. Blackburn. Excellent. Thank you.
    Thank you, Mr. Chairman.
    Chairman Tom Davis. Thank you very much.
    Let me just ask a couple of questions, Mr. McHale. In your 
testimony you talked about a sword that was hidden in a cane, a 
gun that was found in a teddy bear and a knife that was 
discovered in a sealed soda can. The circumstances surrounding 
these instances--if somebody puts a knife in a soda can, they 
couldn't be up to any good.
    Mrs. Blackburn. I would not think so.
    Chairman Tom Davis. A gun in a teddy bear. I mean, what 
were the circumstances around that? Have we actually caught 
terrorists as a result of this, or are these just bumbling 
people who like to carry guns in teddy bears?
    Mr. McHale. Well, there's a lot of people who believe that 
they need to carry protection for various reasons and a lot of 
reasons why people might try to carry a knife and a gun with 
them other than terrorism. I don't think it would be fair to 
say that we have actually found an item that we've associated 
directly with a terrorist at this point. The gun in the teddy 
bear is still a very strange incident and has been under 
investigation. The limited amount I can say about it is that it 
appears that the teddy bear was given to the child at a hotel 
by someone the child did not know and then the child carried it 
to the checkpoint and the gun was found in the teddy bear. A 
very bizarre, truly bizarre incident. The sword cane was a 
sword cane, and the person was carrying the sword cane, and 
they've been referred for prosecution. And I believe that's the 
same case with the knife in the soda can.
    Chairman Tom Davis. But the gun in the teddy bear, as far 
as you know, somebody gave to a kid?
    Mr. McHale. That's correct.
    Chairman Tom Davis. Did we find out who gave it to him?
    Mr. McHale. I don't believe they've done that yet. That's 
still under active investigation.
    Chairman Tom Davis. OK. We're going to hear testimony in 
the second panel from private screening companies that 
participated in the program that they're having problems 
implementing screening procedures that are more stringent than 
the current TSA practices. That's what they're going to testify 
to. Can you give me your understanding of the TSA's position on 
the flexibilities given to the private pilot program airports 
in conducting the screening?
    Mr. McHale. The screening standard operating procedure for 
the private pilot airports and for the TSA airports is 
identical. They use exactly the same SOP.
    Chairman Tom Davis. What if they want to be tougher, if 
they have something that's going to be a little more stringent 
protocol? Are they barred from doing that?
    Mr. McHale. They would be barred from doing that, or at 
least they'd have to bring it to us and we'd have to review it. 
Again, we always have to strike a balance here. You know, you 
can have security at a level at which you'd completely deter 
people from traveling. We need to strike the right balance. So 
our standard operating procedure is designed to do that.
    Chairman Tom Davis. You know, as I've traveled around the 
country and talked to some of these screeners, some of them had 
pretty good jobs and they really feel like they're on the war 
against terror. They want to contribute, and they saw what 
happened on September 11, and they want to be a part. I mean, 
it's different in different areas, I guess. My impression is 
it's been pretty good people for the most part, and it's our 
job then to make sure that they're appropriately trained but 
you're dealing with a good quality of people.
    We have a huge travel rush coming up next week in this 
country----
    Mr. McHale. Right.
    Chairman Tom Davis [continuing]. And it's very difficult 
when you try to look at your priority, which is protecting the 
airlines, making sure they're going to be safe and people who 
are in a holiday rush with all of the other pressures that 
holidays put on individuals and families and so on. Have you 
talked to your people down the line? What are we doing to try 
to make this week--do we have extra people coming in for 
shifts?
    Mr. McHale. What we're doing, we have a mobile screening 
force we use to deal with problems at particular airports that 
we keep ready at all times to dispatch, and they'll obviously 
be fully dispatched over the Thanksgiving holidays to the 
pressure points in the system.
    In addition, we still have some airports that probably have 
an excess of staff compared to other airports. We are 
identifying those within each of the five areas that we divide 
the country up in to and we will reassign that staff. 
Obviously, there'll be overtime; obviously, there'll be some 
leave restrictions over that period. We have to constantly look 
at how we treat our screeners. As you said, they are very good. 
They are very dedicated people. We want to hold on to them.
    We had some real rough times the first year that we got 
them up. We didn't have the infrastructure in place to support 
them. We've corrected a lot of those problems now. I think we 
are treating them better than they were treated in the past, 
and we're trying to set up a lot of systems to listen to them. 
Because they do have good ideas and they have very good ideas 
about how to improve their jobs. So we're working with them to 
do that.
    For the holiday rush, obviously a lot of what we have to do 
is educate people that there will be longer lines, educate 
people as they approach the checkpoint to prepare and help our 
screeners deal with the pressure because the worst thing that 
can happen is for the lines to get longer, the passengers to 
get upset, put more pressure on the screeners and cause some 
security lapses. So we need to keep on working on that and make 
sure our screeners understand that we will support them as they 
do their job and that their No. 1 job is to keep threat objects 
off----
    Chairman Tom Davis. Again, if somebody's in the back of the 
line and running late, do you have a way to try to get them up 
to the front?
    Mr. McHale. We work with the airlines on that. The airlines 
usually try to take care of that; and if they'll bring somebody 
up, we'll try to handle it.
    Chairman Tom Davis. Great. Well, thank you very much for 
being with us.
    I'm going to hand the gavel over to Mr. Shays for a little 
bit. I've got to run to another meeting but I will be back. 
Thank you very much.
    Mr. McHale. Thank you, Mr. Chairman.
    Mr. Shays [presiding]. Thank you, Mr. McHale, for being 
here. I think you and the chief administrator have one of the 
most difficult and unwanted jobs you could have. I say this for 
the simple fact that you could wake up tomorrow and six planes 
could be blown out of the sky and you will be blamed for it 
even though you don't yet have the capability to prevent it. 
That's the reality. I know you can't tell people that can 
happen, but that's the reality. But I can, as a Member of 
Congress, say that we know; and when I fly, I know a plane can 
be blown out of the sky.
    I want to ask you--I do have a basic question that says, 
you know, how safe are we to fly? And I think your answer--
basically someone else's--is we're a lot safer than we were. 
We're a lot safer, and we continue to be safer each and every 
day. But we don't feel as safe because we had a false sense of 
safety before September 11. Do you disagree with anything I 
have said?
    Mr. McHale. I agree completely with what you said.
    Mr. Shays. Thank you. Let me ask you, when I look at--and 
we're going to have--I want to just nail down a little better 
what the attitude is of TSA as it relates to private security. 
Are they being given the capability to prove their worth if, in 
fact, you're the ones that are training them?
    Mr. McHale. I think the answer to that is yes. The statute 
is pretty prescriptive requiring them, for example, to have the 
same training, the same qualifications, the same pay and 
benefits, or similar--equivalent, I believe, is the word--
equivalent pay and benefits. So the statute puts a lot of 
fairly tight restrictions around what they can do.
    Obviously, when we set out to do this in 1 year, meet the 
deadline both with the Federal screeners and the private 
screeners, we didn't have a lot of opportunity to make five 
separate little plans for the private screeners. So what we set 
out to do was, we trained them all with our training contract 
to the same standard. That way we know that on November 19 last 
year and on December 31 last year, we had at every airport in 
the country people who had gone through the same training 
regime.
    We are talking to the various contractors about proposals 
that they may have to give them more flexibility within this 
framework we have in the statute, but that could include things 
such as taking on some of the training responsibilities and 
that sort of thing. Obviously, we'd need to monitor that very 
closely. But those are the kind of things we could look at.
    Mr. Shays. But do they have the resources to provide 
greater training if they choose to?
    Mr. McHale. We'd have to modify their contract because, 
right now, their contract doesn't reimburse them for that. So 
that would have to be negotiated within the contract. 
Presumably some of them have resources and some of them don't, 
but that's something that would have to involve a contract 
modification.
    Mr. Shays. So to have greater training they'd have to just 
do it out of their own pocket?
    Mr. McHale. At this point, yes.
    Mr. Shays. OK. As it relates to the issue, I think we've 
covered a little bit the weapons brought on the plane by the 
young student. I want to talk about the young man who put 
himself in a box and basically sent himself from New York to 
Dallas. Would there have been anything under our present system 
to have prevented him from being wrapped in a bomb and our 
being able to detect him? He still would have been in that box, 
correct?
    Mr. McHale. That's correct. There would have been--that's 
correct.
    Mr. Shays. He still, potentially, could have had some 
firearms on him?
    Mr. McHale. Yes.
    Mr. Shays. So, I mean, it was a real breakdown. But the 
breakdown was he was cargo, correct?
    Mr. McHale. That's correct. He was on an all-cargo carrier.
    Mr. Shays. Why should I feel any comfort--and that happened 
to be by--in a sense, he could have possibly been put on a 
passenger plane, correct? I mean, cargo is put on passenger 
planes.
    Mr. McHale. Cargo is. We do have more restrictions on cargo 
that can go on all passenger aircraft, including things like 
the ``known shipper'' program and other things.
    Mr. Shays. Well, I'm not going to jump up and down with the 
``known shipper'' program.
    Mr. McHale. Right.
    Mr. Shays. ``Known shipper'' is not screening. We call it 
that, but it's not screening. It is just knowing the shipper. 
We don't screen the packages of known shippers.
    Mr. McHale. We do not do explosive-grade detection 
screening on it; that's correct.
    Mr. Shays. Do we do other kinds of screening?
    Mr. McHale. Well, the statute does define, as you've noted, 
that a known shipper is a screening program.
    Mr. Shays. And so--but you and I aren't going to play that 
charade.
    Mr. McHale. Right.
    Mr. Shays. Knowing who the shipper is does not mean you 
screen the package.
    Mr. McHale. I think most people, when we say screening, 
think of some sort of physical screening of the package or x-
ray screening of the package. We do not do that.
    Mr. Shays. Well, what do you think of it as?
    Mr. McHale. By law, it's screening; and that is what we 
have available to us given the type of technology that we have 
in the operational environment. We have to continue to improve 
that technology. We need to continue to work on it. But the 
``known shipper'' program is a tool like a lot of our other 
tools.
    Mr. Shays. I'm going to say it's a tool. But I want to 
really not have the record be unclear here. The law says we can 
call it screening when we know who the shipper is. Is any of 
the cargo screened by knowing who the shipper is? And the 
answer is no.
    Mr. McHale. By law, yes. That's--and obviously----
    Mr. Shays. I'll use another word then.
    Mr. McHale. OK.
    Mr. Shays. By law, it is only because Congress made it that 
way. Because it's like Congress passing a law that says that 
it's sunny every day.
    Mr. McHale. Right.
    Mr. Shays. If we passed a law saying it's sunny every day 
that doesn't mean it's sunny every day just because we passed a 
law saying that, and it's about as absurd as saying that, and I 
know why Congress did that and I think you doo too. But it is 
misleading to the public because it implies that their luggage 
is being screened. I'll tell you why I think the public is 
being misled. I was misled because I thought we screened all 
packages because I saw the word screening; and I learned, 
frankly, from my colleague from Massachusetts, that we don't.
    Mr. McHale. I think we have tried to be very clear, and we 
have been certainly in recent months as we've turned heavily to 
the air cargo area as we've developed our air cargo strategy to 
make it clear what the ``known shipper'' program is and is not 
and that it is not physical and technological screening. We 
stressed that we need to do that screening.
    Of course, the program we've announced this week will 
require random physical or x-ray screening of the cargo on both 
passenger and all cargo aircraft. The specific----
    Mr. Shays. When?
    Mr. McHale. We issued the directive this week.
    Mr. Shays. That it will be done when?
    Mr. McHale. I believe it's effective within 72 hours of the 
issuance, so it's probably effective about now.
    Mr. Shays. Are you saying all cargo is being screened 
physically?
    Mr. McHale. A random screening of the cargo.
    Mr. Shays. So it's random, but it's not--and random is 1 
percent, 2 percent?
    Mr. McHale. That's in the security directive, which is 
sensitive security information. I'll be happy to provide that 
to you in closed session.
    Mr. Shays. The bottom line is we do not physically screen 
all packages that----
    Mr. McHale. We do not physically screen all packages.
    Mr. Shays. And so it is very possible that weapons, it is 
very possible that explosives can be put on a passenger plane 
via cargo that is placed in the passenger plane; is that not 
correct?
    Mr. McHale. I think the--I think I probably have a little 
more faith in the ``known shipper'' program.
    Mr. Shays. I didn't ask you about your faith.
    Mr. McHale. That----
    Mr. Shays. Mr. McHale, I don't care about your faith. I 
care about reality. The reality is, it can be done; correct or 
not correct?
    Mr. McHale. There is no system of security that cannot be 
evaded.
    Mr. Shays. That's not what I asked. That's not what I 
asked.
    Mr. McHale. Well, then, Mr. Shays, the answer to that 
question obviously is yes.
    Mr. Shays. No.
    Mr. McHale. The answer is yes.
    Mr. Shays. No, but the--because--we both agree that you can 
break through any system.
    Mr. McHale. Right.
    Mr. Shays. But at least when we check the baggage in an 
aircraft we are checking every bag, correct?
    Mr. McHale. That's correct.
    Mr. Shays. Physically.
    Mr. McHale. That's correct.
    Mr. Shays. And so we make it a lot more difficult. If in 
fact we are not checking what is cargo on an airplane that 
could be on a passenger plane, if in fact that cargo, instead 
of being on a cargo plane is put on a passenger plane, it is 
physically unscreened, correct?
    Mr. McHale. Unless it's subject to the random screening, 
that is correct.
    Mr. Shays. Right. How do you feel about that?
    Mr. McHale. I'm told, actually the security directive is 
effective in a little over a month. We've given them a month to 
put it into effect.
    Mr. Shays. I just want to know how you feel about the fact 
that we don't physically screen----
    Mr. McHale. I would like to have screening of every item 
that goes on an aircraft. The fact is the systems are simply 
not in place at this time. For us to require that we would have 
to shut down large portions of the air cargo system. It's our 
job to try to come up with a way to keep things moving as well 
as secure. We don't want to hand the terrorists an unearned 
victory.
    Do I feel comfortable about it? No. I think we need to keep 
on tackling the issue, keep on working the issue as hard as we 
can, come up with the best ways we can to secure the cargo and 
aircraft, but I don't think it would be appropriate at this 
time to bar cargo from aircraft.
    Mr. Shays. Why don't we do what we did when we did the 
checking for baggage? I know this part of it because I refused 
to vote for the TSA bill in November unless we had a deadline 
for screening. We put the deadline for screening, the end of 
2003, but in order to get my vote, they did that. And it passed 
by what, how many votes?
    Mr. McHale. I think it passed quite handily at the end of 
the day, did it not?
    Mr. Shays. OK. It was a close vote.
    Mr. McHale. Oh, I'm sorry.
    Mr. Shays. It was a close vote.
    But let me ask you this. When it got out of the House, 
that's what it was. My point, though, is we were told it 
couldn't physically be done by the end of 2003. Then when it 
came back from conference, it said the end of 2002. So I go to 
my leadership and I say, well, if we couldn't do it by 2003, 
how could we do it by the end of 2002? And the response I got 
was that they did not want there to be more than 12 months or 
14 months in which we were saying to the American people we 
weren't going to physically screen all baggage. Well, 
ultimately, when did we--do we physically screen all baggage 
today?
    Mr. McHale. Yes, we do.
    Mr. Shays. And when did we meet that deadline?
    Mr. McHale. December 31, 2002.
    Mr. Shays. Right. Why shouldn't we put the same deadline on 
cargo?
    Mr. McHale. The difference is this: We obviously went to 
extraordinary lengths to meet that deadline, and we did, and 
I'm very proud of that. The technology was in place and in use 
in airports to detect explosives in baggage. Very little of it, 
but it was there. In 2000, 40 machines had been ordered 
worldwide. We had to basically redesign the production systems, 
which we did and we could do, to bring that total up to 1,100 
bought and installed in 2002 to meet the deadline, plus 5,000 
of the trace detection machines.
    Cargo comes in all sorts of different shapes and sizes for 
aircraft and it comes in all different varieties. It's a very--
it's a much more difficult problem to do explosive detection on 
cargo than it is on baggage, and we do not have the machines in 
place to do that. We do have machines that can x-ray cargo but 
that doesn't detect.
    Mr. Shays. What you just said, though, is something known 
by the terrorists, so you didn't disclose anything.
    Mr. McHale. I did not disclose anything to them.
    Mr. Shays. Right. Then why wouldn't we--and we'll get on 
here--but why didn't we--or why wouldn't you recommend or why 
wouldn't you set your own deadline for saying that all cargo on 
a passenger plane will be checked by a certain deadline?
    Mr. McHale. We have an aggressive R&D program. Congress has 
given us quite a lot of money for that this year. I believe 
it's close to $150 million for the R&D program. And we also 
have additional funds in the Department of Homeland Security 
budget in the Science and Technology Directorate. We're going 
to aggressively pursue that technology. Once we have the 
technology, once we have the systems, then I think a deadline 
is appropriate to drive them into the operational side of the 
system. But if we don't have the technology, it's kind of--a 
deadline makes it--you know, I'm not confident as to the--I 
could not today tell you when we'll have the technology that's 
available. We're trying to do it.
    Mr. Shays. The problem is that we have an example of a 
deadline that nobody wanted that we ended up having that we 
met.
    Mr. McHale. Right.
    Mr. Shays. And I'm struck by the fact that what goes in the 
belly of an aircraft that's a passenger plane is probably not 
going to be as large as containers for cargo.
    Mr. McHale. That's true. We do have a couple of programs 
that we're doing. One is, for example, we are using canines to 
detect potential explosives in mail that go in the passenger 
planes. We've also got canines out there working with us on 
inspecting some of the cargo in passenger planes, the smaller 
packages. You know, dogs are pretty useful for a lot of things 
but there are some types of cargo, especially palletized cargo, 
where they're not all that helpful. But we're trying to bring 
them online as well as the technology solution. We know dogs 
work, so--and that's the technology that's there. They take, 
obviously, a long time to deploy. But that's something that 
we're working on, too.
    Mr. Shays. Do we know when we have that it's going to go on 
a passenger plane versus a cargo plane? Does TSA have a sense 
of that?
    Mr. McHale. We know that there's only certain cargo that 
can go on passenger planes and we know what that is. But cargo 
that can go on a passenger plane could also go onto an all-
cargo plane.
    Mr. Shays. Right. Let me just--before getting to our next 
panel, give me a sense of why I should feel comfortable about 
the screening, the effort we do to protect our aircraft from 
employees who work at the airport? I'm told, but it's basically 
more rumor than fact so I'll say that to you, that we don't do 
a particularly good job of checking who gets on the airplane, 
workers who get on, that they have much freer access to the 
field and that we leave ourselves vulnerable. Do you think 
that's a concern?
    Mr. McHale. I don't think it's as much of a concern as 
perhaps has been suggested. We do have basically three types of 
employee: employees who have access to the secure area, which 
is generally the ramp, unescorted access on the secure area, 
which is basically the ramp on which the aircraft are parked 
and the aircraft; employees that have access to the sterile 
area, which is the area beyond the checkpoint; and then 
employees who have regular escorted access to aircraft or other 
secure areas of the airport. All of those employees are 
subjected to a background investigation which includes a check 
of the terrorist data bases and intelligence data bases as well 
as the criminal history records, and we update that 
periodically. We have conducted over--we have updated all of 
them since September 11. We've conducted well over a million 
background checks in that area to understand that very--and 
quite a few people have been removed as a result of those 
background checks.
    Mr. Shays. All right. Is there anything that you would like 
to put on the record before we get to the next panel?
    Mr. McHale. The only last thing, just on the air cargo, 
just to note that we have been working very carefully with the 
Aviation Security Advisory Committee. It's a committee that 
consists not only of industry members but also consumer groups, 
passenger groups, the victims of Pan Am 103, and other groups. 
We have worked with them to develop a strategic plan. As I 
mentioned, the security directives that we issued this week are 
in fact beginning to implement the strategic plan, air cargo 
strategic plan that we announced early this week.
    Mr. Shays. Mr. McHale, let me just thank you for I know 
what is a 7-day-a-week job, probably 24 hours a day; and I have 
a feeling you don't sleep as well as some of us sleep.
    Mr. McHale. I think that's correct.
    Mr. Shays. And we thank you for your service to your 
country.
    Mr. McHale. Thank you very much.
    Mr. Shays. Thank you.
    Our second panel is Cathleen Berrick, GAO Director of 
Homeland Security and Justice Issues; John DeMell, president of 
FirstLine Transportation Security; and James McNeil, president 
of McNeil Security, who is accompanied by Mike Broida, site 
manager, Greater Rochester International Airport.
    Anyone else who may be accompanying them who might be 
called to respond to questions, we'd like you to stand as well 
and we'll swear you in. Is there anyone that might be 
accompanying you that you might ask to respond to a question? 
If so, they can stand up and be sworn, and then if you're not--
if you don't end up speaking it would--it saves us the trouble 
of swearing you in again. Is there anyone else? Are we all set?
    [Witnesses sworn.]
    Mr. Shays. Note for our record that our witnesses have 
responded in the affirmative.
    Ms. Berrick, we'll have you go and then Mr. DeMell and then 
Mr. McNeil. We'll have you give your testimony, and then we'll 
ask you questions.
    Ms. Berrick. Thank you.
    Mr. Shays. Can you just suspend 1 second, please?
    Ms. Berrick. Sure.
    Mr. Shays. Thank you. I'm sorry to interrupt. We'll start 
all over.
    Let me just tell you I'm going to give you 5, and then I'll 
roll over, but I'd like you to finish in a minute or two after 
that. So it'll be 5 minutes.
    Ms. Berrick. OK. Certainly.
    Mr. Shays. With a little bit of leeway.

STATEMENTS OF CATHLEEN A. BERRICK, DIRECTOR, HOMELAND SECURITY 
  AND JUSTICE ISSUES, GENERAL ACCOUNTING OFFICE; JOHN DEMELL, 
PRESIDENT, FIRSTLINE TRANSPORTATION SECURITY; AND JAMES MCNEIL, 
CHIEF EXECUTIVE OFFICER, MCNEIL TECHNOLOGIES, INC., ACCOMPANIED 
 BY MIKE BROIDA, SITE MANAGER, GREATER ROCHESTER INTERNATIONAL 
                            AIRPORT

    Ms. Berrick. Thank you. Thanks again for the opportunity to 
participate in today's hearing on the security of commercial 
aviation and, in particular, passenger screening.
    Since the attacks of September 11, numerous changes have 
been made to strengthen passenger screening, including the 
Federalization of screeners and the enhancement of screening 
operations. However, recent reviews and testing conducted by 
GAO and others and recent media reports have revealed 
continuing vulnerabilities in screening. My testimony today 
focuses on three areas that we believe are fundamental in 
strengthening passenger screening. These areas include 
measuring the effectiveness of the current screening operation 
through increased testing and collection of performance data; 
second, strengthening screener training; and, third, assessing 
the performance of pilot airports using contract screeners and 
preparing for the potential transition of other airports to 
private screening companies. These conclusions are based on our 
preliminary assessment of TSA's passenger screening program. We 
have an ongoing review assessing these areas in further detail.
    We found that TSA has collected limited information on the 
effectiveness of passenger screening but is taking steps to 
collect additional information. For example, TSA's primary 
source of information on the effectiveness of its screening 
program is through covert testing conducted at security 
checkpoints. However, we found that, as of August 2003, TSA had 
only tested about 2 percent of its screening work force.
    Another key source of screener performance data is the 
Threat Image Projection system [TIP], which was deactivated 
after September 11 and hasn't been fully redeployed. TIP places 
images of threat objects on an x-ray screen during actual 
operations to record whether screeners detect a threat object.
    We also have found that TSA has not fully deployed an 
annual recertification program for screeners that would provide 
additional performance data. As I mentioned, TSA is taking 
actions to begin collecting additional performance data, 
including doubling its covert testing. Fully reactivating TIP 
by the summer of 2004 is what they have planned as well as 
establishing a screener certification program.
    We also found that TSA should strengthen its recurrent and 
supervisory training programs. TSA cited a lack of training and 
effective supervision as primary causes for screening testing 
failures during the covert tests. However, TSA has not fully 
developed or deployed these programs. Recurring training is the 
ongoing training of screeners on a frequent basis to enhance 
their skills and introduce them to additional threat objects.
    Some screening supervisors we interviewed also reported 
that they had not received any specialized training to assist 
them in their supervisory role. TSA is taking positive steps in 
this area, including deploying some recurrent training modules 
and tailoring an off-the-shelf supervisory course to meet the 
needs of its training supervisors. However, we feel that they 
could do more in this area. Finally, TSA wants to determine how 
to evaluate the performance of the five pilot airports that are 
using private screeners and prepare for airports potentially 
opting out of using Federal screeners beginning in November 
2004.
    Both of these efforts will be challenging for the following 
reasons: First, TSA recently issued a contract to begin 
assessing the performance contract pilot airports. However, 
since TSA has collected limited performance data on screening 
operations, it will be difficult for the contractor to assess 
how well the pilot airports have been performing. Second, since 
the pilot airports have been granted only limited flexibilities 
in running screening operations, this could limit TSA's ability 
to effectively assess whether efficiencies could be achieved by 
using private screening conditions. Third, TSA has not yet 
established a process to evaluate airports that may apply to 
opt out of using Federal screeners or determine the impact that 
this may have on TSA's staffing and oversight requirements.
    We are encouraged that TSA is taking steps to strengthen 
its passenger screening program and believe that they should 
continue to focus in on the areas of performance, management, 
training, and contract screening. We will continue to review 
TSA's efforts in these areas as we conduct our analysis of the 
passenger screening program.
    Mr. Chairman, this concludes my opening statement. I'd be 
happy to respond to any questions at the appropriate time.
    Mr. Shays. Thank you. Did you take a breath during that 
entire time?
    Ms. Berrick. I wanted to get it in within 5 minute.
    Mr. Shays. I know. But I didn't want you to feel you had 
to. Thank you for your testimony.
    Ms. Berrick. Thank you.
    [The prepared statement of Ms. Berrick follows:]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shays. Mr. DeMell.
    Mr. DeMell. Mr. Chairman, since November 2002, FirstLine 
Transportation Security has provided predeparture screening 
services for the TSA at Kansas City International Airport. 
Under the PP5 pilot program, FirstLine must meet the same 
overall hiring, training and security requirements as Federal 
screeners. Our employees receive training from the TSA to 
ensure that security measures are consistent with the TSA 
procedures.
    We firmly believe that FirstLine and the TSA must form a 
seamless partnership. Make no mistake the TSA must continue to 
provide supervision and accountability for overall safety 
standards and hiring practices. However, the pilot site should 
not be required to mirror every procedure used at non-PP5 
airports for the sake of sameness alone. The second year of the 
PP5 program should give private screening contractors 
sufficient flexibility to implement private sector innovations 
and creativity which could lead to higher passenger security at 
the most efficient cost to the taxpayer.
    To help measure progress, it is essential to recall how the 
pre-September 11 screening process worked. Security was treated 
just like any other airline contract or commodity, resulting in 
a minimum wage work environment and atmosphere. The selection 
of equipment used at checkpoints reflected budgetary caution 
rather than safety concerns. Financial incentive clearly tilted 
toward making checkpoint passenger screening just another line 
item to be constantly squeezed into an already financially 
challenged industry. All of this changed after September 11 
with the creation of the TSA.
    This new security screening model, which included the PP5 
program, has not been without its challenges. On October 8, 
2002, the TSA awarded FirstLine a PP5 program contract. Just 42 
days later, right before the holiday rush, FirstLine assumed 
control for meeting the staffing requirements for KCI 
screening. It soon became evident that the PP5 program was not 
at the top of the TSA's to-do list. FSDs were forced to 
administer a new program, apparently without sufficient 
headquarters direction or support.
    One of the major problems we experienced is that the TSA 
involved too many contractors performing too many tasks under 
inflexible contracting arrangements. For example, FirstLine can 
only hire individuals who pass TSA's assessment and training 
criteria. This qualification process is run by TSA contractors 
who appear to be limited to either the number of individuals 
they can assess or train as well as to the amount of time they 
can spend at KCI. It was a full 8 months before TSA's 
contractors made a repeat assessment and training process 
available to FirstLine. This inability to fill vacancies 
severely frustrated our operations and continues to be an 
unresolved hurdle.
    Despite these challenges, we are particularly proud of the 
work that our employees perform given an airport configuration 
that requires 12 screening checkpoints. By comparison, Atlanta 
Hartsfield has only four. The KCI layout also requires us to 
double-screen many passengers who must leave the secure area 
for restrooms or food. We have developed a close working 
relationship with Richard Curasi, KCI's Federal Security 
Director, to ensure that KCI security responsibilities are met. 
His central focus on our shared security mission and his 
personal efforts to foster a true partnership are critical to 
the success of this evolving public-private screening level.
    Our ability to bring private sector human services 
management enhances the screening product we deliver. FirstLine 
can provide enhanced pay scales, training and rewards for 
exceptional performance and attendance in excess of government 
requirements. Our Employee Advisory Committee allows management 
responsiveness to employee concerns in real time, and we also 
have the ability to discipline or offer corrective guidance in 
a timely manner. At KCI, we remove the TSA's burden of day-to-
day resource management, allowing the Federal Government to 
focus on security, safety and technology priorities.
    Finally, there are a number of adjustments that could be 
incorporated into the PP5 program that would in no way 
compromise the high security standards we fully support. Two 
examples include increasing local decisionmaking ability at the 
FSD and contractor level regarding assessment, training and 
passenger traffic scheduling requirements, all of which are 
critical to maintaining appropriate staff levels and 
controlling overtime; and providing funding support for 
software management tools that enable maximum work force 
utilization as well as maintenance of employee performance and 
training records.
    Mr. Chairman, our PP5 experience has convinced us that the 
private sector has much to offer TSA and the Nation in our 
post-September 11 screening approach. With appropriate 
modifications to the PP5 program, these contributions could be 
even more easily identified and measured in the coming year. 
FirstLine is committed to ensuring that the second year of the 
PP5 and our work for the traveling public at KCI continues to 
enhance the security of our airline passenger system.
    Thank you.
    Mr. Shays. Thank you, Mr. DeMell.
    [The prepared statement of Mr. DeMell follows:]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shays. Mr. NcNeil.
    Mr. McNeil. Mr. Chairman, McNeil Security, Inc., a 
subsidiary of NcNeil Technologies, is pleased to testify before 
the Committee on Government Reform.
    McNeil Security has a contract with the Transportation 
Security Administration to provide security screening at 
Rochester International Airport in Rochester, NY. Rochester 
Airport is a category II airport and is one of the five 
designated pilot program airports. Although we were not 
involved in commercial airport screening prior to the 
establishment of the TSA, we have an extensive security 
screening expertise providing access control and related 
security services to a number of defense facilities.
    All of our screeners employed at Rochester International 
were selected using the same process and requirements as those 
of airports with Federal screeners. The basic training program, 
provided by Lockheed-Martin and Boeing, was identical to the 
ones given to the Federal screening. The same on-the-job 
training requirements and testing procedures leading to 
certification were also used.
    Staffing requirements, checkpoints and baggage screening 
operation procedures and reporting methods are the same for 
those at Federal airports. The daily operations are monitored 
by the TSA screening managers. Scheduling and other duties 
performed by TSA screening managers at Federal airports are 
accomplished by McNeil Security supervisors at Rochester.
    McNeil supervisors are assigned additional duties to their 
TSA-mandated functions, such as training, supply procurement, 
scheduling, and so on. This has enhanced the development of our 
supervisors but also helped foster teamwork between TSA and 
McNeil Security. One example of this was the development by 
McNeil Security supervisors of a procedure and forms that 
accurately catalogs various data TSA requires on a daily basis.
    Training is a serious issue for McNeil Security. It cannot 
be overstated that the training provided to one of the first 
lines of defense in aviation safety must keep pace with the 
resourcefulness of terrorists. This begins with basic training, 
where customer service and security are held on equal planes. 
While there is nothing wrong with encouraging screeners to be 
polite, respectful and friendly, speeding passengers through a 
checkpoint to avoid delays must never take priority over 
security.
    It is a fact that while numerous wait-time surveys have 
been conducted, there has been little or no recurrent training 
provided except which McNeil Security has provided. Screening 
supervisors are given no additional training beyond the basic 
screening training course. Until very recently, no TSA-
sponsored training for supervisors was available. Basic problem 
solving, communications and other standard supervisor training 
has not been offered. This is despite the fact that supervisors 
have a myriad of duties outlined in the TSA SOP. The duties 
referred to involve alarm resolution, explosive trace 
detection, x-ray image interpretation, and other security-
related functions.
    This is an area where training and interviewing techniques 
and the recognition of deception will improve operations.
    The recurrent and enhanced training provided by McNeil 
Security, strongly supported by Commander Bassett, the Federal 
Security Director at Rochester, is bridging some of the 
training gaps. He has approved a variety of training programs 
we have initiated for our screening force. These include hand-
wanding techniques, screening persons with disabilities, exit 
lane procedures, report writing for supervisors, concealed 
weapons, improvised explosive detection devices, recognition of 
suspicious behavior, communications for supervisors, and 
Operation Eagle Eye, which is recognition of suspicious 
behavior, evaluation and preparation for supervisors, 
leadership skills, explosive trace detection refresher ETD. 
Those are all supplied by McNeil Security. Commander Bassett 
also recently authorized a member of his own staff to conduct 
IED recognition training at the checkpoints. There has been 
discussion of a TSA on-line training initiative. While on-line 
training can be helpful, role playing, actual demonstration and 
other hands-on training is much more effective.
    We would welcome some guidance and training in this 
particular area. This test also points to the customer service 
versus security dilemma.
    Recertification testing was performed in August. McNeil 
Security has repeatedly requested access to the scores. We are 
interested in feedback about which questions were missed or any 
x-ray images identified as threats or no threats. We have no 
information on how the tests were validated.
    In addition, without the aforementioned information, a 
valuable training tool was lost. It is not possible to identify 
those areas where screeners may need additional training. 
Screeners were supposed to be ranked by their test performance. 
This is important information for corporate actual performance 
reviews. To date, this information has not been provided.
    Thank you.
    Mr. Shays. Thank you very much.
    [The prepared statement of Mr. McNeil follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shays. What I am going to do is ask our counsel, David 
Young, to begin the questions.
    As I see this panel, we basically really have the private 
folks who are involved in four airports. Mr. DeMell, how many 
airports do you do?
    Mr. DeMell. We do just the Kansas City International 
Airport.
    Mr. Shays. Before I go to Mr. Young, you said there were 12 
separate entrance ways--I thought you said, Mr. DeMell?
    Mr. DeMell. There are 12 passenger screening checkpoints.
    Mr. Shays. You are not counting two machines side by side?
    Mr. DeMell. No, sir.
    Mr. Shays. That strikes me as quite significant.
    Mr. DeMell. Kansas City, and we have a diagram in our 
written presentation, has a very unique layout. Not only are 
there 12 checkpoints and eight baggage screening stations, once 
you get into a secured area or the gate area where you 
typically sit to wait for your flight, if you have to use the 
bathroom or would like a coke or cup of coffee, you have to go 
out of the secured area and come back and get screened again. 
There are no facilities inside of the secured area because of 
the size and configuration of that airport.
    Mr. Shays. You have a pretty unusual site.
    Mr. DeMell. A very unusual site.
    Mr. Shays. Is that typical of the other four sites? In 
other words, did we choose to give the private sector the five 
hardest sites, or does this just tend to be the only one like 
this?
    Mr. DeMell. Kansas City International is unique. The only 
airport that may compare in some way would be LaGuardia. It is 
a larger airport with some similar challenges. Kansas City is a 
unique setup. There isn't another one like it that I am aware 
of.
    Mr. Shays. OK. Ms. Berrick, let me ask you this. Were they 
chosen at random?
    Ms. Berrick. TSA's methodology for selecting the five pilot 
airports was to select one in each of the airport categories. 
So there is a category of the airports that are the largest and 
most at risk, down through category 4.
    Mr. Shays. That would appear to make sense, correct?
    Ms. Berrick. We didn't look specifically at their 
methodology for selecting the pilots, but that seems to be a 
reasonable approach.
    Mr. Shays. I will jump in after--maybe jump in while--my 
privilege--Mr. Young asks some questions.
    Ms. Berrick, I will be wanting to ask you some questions 
other than the private sector play in this issue. I will want 
to know in general your assessments of port security and cargo 
and so on.
    Mr. Young. Thank you, Mr. Chairman.
    I know that you have all spoken in your testimony about the 
need for flexibility with regard to the particular needs at 
particular airports. The Federal Security Director is supposed 
to be the focal point as the representative from TSA that is 
there to manage the security issues for particular airports. 
Understandably, there are standards that need to be met. There 
are requirements, regulations and laws that obviously need to 
be applied.
    I am curious to hear from McNeil Security and FirstLine 
Transportation Security about your relationship with your 
Federal Security Directors, how you are interacting with those 
directors in implementing TSA requirements and also how 
difficult or easy is it to do extra things. Like, Mr. NcNeil, 
you mentioned the additional training you have done, and, Mr. 
DeMell, I know you have also done additional training at your 
airports. So I am curious to hear what your experience is in 
having localized additional either screening requirements in 
terms of actual actions or practices that you all take and also 
additional training that you do.
    Mr. DeMell. I guess I can start.
    In addition to the training that we have heard about that 
is mandated via the TSA, in Kansas City we recently instituted 
a program where every screener receives 3 hours of additional 
training every single week. Now that is an initiative that was 
put in place in conjunction with our Federal Security Director 
that was not a TSA Washington-dictated action. Screener 
supervisor training, we really have been given the latitude to 
do the things we think we need to do to make our supervisors 
better supervisors.
    I will say, in the program as it is designed today, the 
relationship between the private contractor and the Federal 
Security Director is key. The program, in my view, was a bit of 
an orphan program for several months and the FSDs were really 
left out there with little direction and little help from 
Washington in managing this program. I think it has just been 
in recent months, the last 4 or 5 months, where things have 
begun to change, and I think we now are in the process of 
developing and have come a long way toward developing a true 
partnership in meeting the mission at hand.
    Mr. McNeil. We are very fortunate at McNeil Security in 
Rochester to have a very good relationship with our Federal 
Security Director. He has allowed us to establish new training 
programs for our people that weren't originally prepared by 
TSA. We have, I guess, instituted about four or five different 
training programs for our people, including customer service, 
as well as explosive trace detection that were not originally 
offered. We also brought in some of the local police officers 
to give us specific types of training on identifying explosives 
as well as local military units to help us identify different 
kinds of weaknesses we might have.
    Some of the problems that we are actually encountering, 
even though when we go to our Federal Security Director, there 
are some times when he has to go up the line to get information 
and get approval, and it is very difficult in fact for him to 
get approval for us to do certain things. For example, on 
recurrent testing, when we get people who have been tested, we 
continue to get the results of the testing on our own people to 
allow us to identify weaknesses in the test so we might be able 
to design a training program to strengthen the areas in terms 
of where they fail the tests. We are still trying to get 
information in that regard. All in all, I think it has been a 
very good relationship, but a very difficult one from the 
standpoint of actually trying to get information from 
headquarters.
    Mr. Young. With your experiences with doing these extra 
training activities, does TSA seek input from you all in terms 
of ways to improve their own programs so that, if some of the 
programs you are doing might be beneficial to TSA as a whole, 
is there a mechanism for you to be able to transmit that 
information to TSA?
    Mr. DeMell. There is a mechanism that flows through the 
local Federal Security Director as it relates to FirstLine's 
experience, and we also are very involved with ideas from the 
screener level up. We have an Employee Advisory Council that 
meets bimonthly--I am sorry, twice a month--and part of their 
responsibility is to offer suggestions for improving the 
security function in Kansas City International Airport.
    Mr. McNeil. The same has been true with McNeil Security. We 
do also have ways of getting information up through the system 
and getting approval. We also have an Employee Advisory Council 
that provides feedback from the employees in terms of morale 
and other things we can actually do to promote that.
    The biggest difficulty I think we have is that the pilot 
programs have been sort of ignored. No real attention has been 
paid to them. I think most of the focus has been on the other 
airports, opposed to saying this is separate and distinct and 
how can we treat them that way.
    Mr. Young. So you believe then that, although you are 
sending up information, that TSA isn't taking the information 
as seriously as they are taking it from other airports?
    Mr. McNeil. In my opinion, if it is not part of the basic 
training or the basic kinds of things they are doing for all 
airports, then they don't really take it very seriously.
    Mr. Young. Thank you.
    Ms. Berrick, I know we have again talked about flexibility. 
On the other hand, though, we do need to make sure there is 
standardization because there are passengers that need to go 
from airport to airport. They have to be familiar with the 
different standards as well as airlines that have to deal with 
the various rules. Has GAO thought of what the balance needs to 
be or made any suggestions with regard to flexibilities with 
that in mind?
    Ms. Berrick. We are currently looking at the issue you just 
mentioned in terms of what is the appropriate balance, and we 
are going to be issuing a report on that subject in April. I 
can tell you, based on the work we have done, obviously the 
authorizing statute for the five pilot airports identified that 
the standards have to be comparable, at least at a minimum with 
the standards that TSA has in place, and pay and benefits have 
to be comparable but we believe even within that makeup there 
is room for some flexibility that TSA could afford the five 
pilot airports to determine whether or not they could achieve 
some efficiencies. As a part of--we issued a preliminary report 
on this subject in September, and we did mention that we heard 
some concern from some of the pilot airports that they weren't 
given some of the flexibility they wanted in terms of doing 
additional training, in terms of having additional testing at 
their airports, and we are looking into those areas further as 
a part of this review.
    Mr. Young. It sounds like from our folks here that might be 
improving a little bit in terms of their relationship with the 
FSDs.
    Ms. Berrick, coming back to you and moving a little bit 
toward supervisor training, I know that you had mentioned that 
GAO had some recommendations in terms of what TSA might be 
looking at in terms of supervisor training in addition or 
perhaps different from their current use of the USDA graduate 
school basic manager course. Could you comment a little bit on 
that?
    Ms. Berrick. My first comment, again, is that we are 
continuing to look at training as well so we will have some 
additional information on this later. But the initial concern 
that we had in looking at this area was that supervisors were 
telling us there was no supervisory training and they really 
needed that training in order to do their jobs. Also TSA's 
Internal Affairs Office that does covert testing at the 
screening checkpoints cited supervisory oversight as a problem 
causing some of these screener testing failures. So we think it 
is very important.
    TSA has since taken some action to help correct that. They 
are taking a USDA graduate school course, a general supervisory 
course that they started giving some TSA screening supervisors, 
and they are going to modify that course to meet the specific 
needs of the screening supervisors. We think that is definitely 
a step in the right direction. Still, the immediate problem is 
that has to be going out to all supervisors within TSA. I think 
TSA reported that 500 supervisors have gotten that training 
system. However, we believe it needs to go out on a widespread 
basis to make sure everybody gets that training. Then we are 
looking at what will be some additional training that will be 
useful for supervisors.
    Mr. Young. Thank you.
    For FirstLine Transportation Security and McNeil Security, 
what kinds of training do you think are necessary for your 
screener supervisors?
    Mr. DeMell. I think they need the basic HR training that 
every supervisor needs to develop the skills to manage people. 
I might also add, in reflecting on Mr. McHale's testimony, the 
TSA has two sets of problems. One-half of their plate is filled 
with managing the work force, and I really think that is what 
companies like FirstLine bring to the table. By enabling us to 
handle all of the HR functions, the supervisor training, the 
ongoing training, removing all of the HR issues from the TSA's 
plate, we allow them to focus on process, procedure and 
technology. I think that marriage of those two efforts brings 
the completion of the mission at hand to a much better 
conclusion in a positive way than the processes that are in 
place today.
    Mr. Young. Mr. NcNeil or Mr. Broida.
    Mr. Broida. I will address that.
    The supervisory training which TSA has not provided, there 
are two important parts. What Mr. DeMell said is certainly 
true. But, in addition, the SOP refers to many, many specific 
duties of a supervisor in alarm resolution, for example. In 
those cases, neither the SOP nor the training gives any 
guidance to the supervisor of actually how to perform those 
functions. In fact, I myself am a certified screener; and when 
I went through the school I asked the question of the 
instructor who said, ``Well, it says notify your supervisor. I 
am the supervisor. What do I do?'' The instructor said, ``That 
is it.'' You are the supervisor, and no guidance was given. 
That has never been clarified since, and that was--I graduated 
from screener school on November 15, 2002.
    So our supervisors were sort of given only a half training, 
and that has never been filled in. While the HR issues and 
basic supervisor skills are indeed important and we at NcNeil 
have provided some of those courses--we gave a training course, 
an active listening course for our own supervisors--these types 
of things in dealing with alarm resolution and the actual 
supervisory duties of overseeing a security checkpoint are 
completely lacking.
    Mr. Young. Thank you.
    I also know from some of the information, Mr. NcNeil, that 
you spoke about some of your additional training with regard to 
interview skills and those kinds of things. How helpful do you 
think that is for screeners in terms of being able to not only 
just be able to operate the machines but also to be able to 
observe people and how they react to situations? I am just 
wondering if you all have any examples of how that might have 
been used or was helpful in a particular situation.
    Mr. McNeil. Mr. Broida is going to answer that.
    Mr. Broida. Earlier when Mr. McHale was testifying there 
were questions about weapons that had been found and how people 
say, ``Oh, I just forgot it,'' and things like that. We were 
rather incredulous--and I have been actually on the job--with 
the number of weapons people bring to secured areas and say 
they just forgot about. Recently--well, in the course of our 
experience at Rochester, there are two incidents in which 
handguns were detected by our screeners at checkpoints. In both 
of those instances, they were legally registered handguns and 
the persons with them had pistol permits, New York State carry 
permits, and their explanation was they simply had forgotten 
they were in their various pieces of luggage.
    However, the supervisor is the first person there and has 
to begin asking questions. Do you know what is in your bag? Why 
is it in your bag? Questions like this. Without any training 
and interviewing techniques or the ability to detect deceptive 
responses, our supervisors really do not have the ability to 
begin that type of an investigation.
    I think that basic interviewing techniques are of extreme 
importance to all screening personnel. In Rochester, our 
checked baggage system right now is an ETD system in the lobby, 
a post-check-in system. Therefore, the passenger is present 
when his baggage is screened. It is not uncommon to have ETD 
alarms which can be caused by things other than explosives. I 
can't comment on those things, obviously. But one of the things 
that is done when such an alarm takes place is a resolution in 
which the supervisor is supposed to ask--or the screener--a 
series of questions without any training in how to ask those 
questions and detect if the responses are deceptive.
    Mr. Young. Thanks, Mr. Broida.
    Just kind of to wrap up, Ms. Berrick, today the TSA, Mr. 
McHale, spoke about the short-term screening improvement plan 
that they have in terms of the things that they are going to be 
working on and their priorities in terms of improving passenger 
screener training, testing, supervising, all those kinds of 
things. Does GAO have some kind of comment about TSA's approach 
in terms of taking an immense problem that has existed even 
before TSA even existed and given the fact that there have been 
limited time periods that Congress has given TSA to handle and 
hire lots of people and make sure they are ready? Can you just 
comment a little bit about their approach in terms of looking 
at the problem, trying to analyze it, and look at a road map 
for solving those issues?
    Ms. Berrick. Sure. We think we included this in our 
testimony in some prior work that GAO did.
    The first thing TSA really needs to focus in on is 
measuring how well their passenger screening program is 
performing, and that starts with establishing metrics from 
which to measure and then determine whether or not they are 
improving as they make all these enhancements to their 
passenger screening program. One way to do that is through 
increasing their testing program. That is a great way to get 
data on how well they are performing, and TSA does have some 
plans to do that. Another way to get additional performance 
data is to put the TIP system, the Threat Image Protection 
system, nationwide so you can collect a lot of additional 
performance data that you are not going to be able to get 
through screening. The annual screener certification program is 
another way to get performance data on how well screeners are 
performing. We think TSA needs to continue strengthening their 
efforts to determine how well they are performing and, based on 
that information, determine where they need to focus their 
resources.
    We think that the screener improvement program that they 
went through was a great idea. We are looking at that right now 
to see if they are developing action plans and how exactly they 
plan to followup on the issues that they identified. But, 
again, we think the focus should be on measuring their 
performance and from there determining where their weaknesses 
are.
    Mr. Shays. Thank you, Mr. Young.
    Let me just ask the private sector here, give me the bottom 
line as to what you think the issue is right now as we approach 
the time in which airports can opt out of the public sector and 
choose private sector.
    Mr. DeMell. I think the real challenge is differentiating 
the private contribution from the public-private contribution. 
Because there has been little latitude and little flexibility 
built into the system, we struggle to differentiate ourselves. 
I think, as I stated earlier, that our contribution on the HR 
side to the management of the work force has to be a prime 
consideration in looking at the public-private partnership as 
viable going forward. I think that is where we bring a lot of 
tools to the table that possibly the Federal Government is not 
able to bring or is not able to bring at the level that we are.
    Mr. Shays. Thank you. I would like both of you to respond.
    Mr. McNeil. I would agree with Mr. DeMell from the 
standpoint that if we were to allow more flexibility in terms 
of staffing the jobs, in terms of determining what are the 
staffing requirements that we have--because in some cases we 
believe we could staff it with less people than required by TSA 
to do the job. A little more flexibility in terms of being 
creative, being innovative in some of the solutions that we 
have.
    We formed several focus groups in the organization, both on 
the baggage as well as its passenger side, to identify ways we 
can actually be more efficient in terms of how we do our jobs. 
If we were able to have a little more flexibility in 
implementing some of those--and then again, training, if we 
could be just a little more flexible in terms of the training 
we have offered. Most of the training we have offered has added 
very little additional cost to our budget. We have sort of 
eaten that in-house. But getting from local law enforcement 
agencies that has the training professionals on staff, they are 
eager to actually provide that training for us.
    Mr. Shays. What I understand when you are talking about 
flexibility, it is that you can train them to do anything, as 
long as you are willing to pay the cost, correct?
    Mr. McNeil. That is not correct. We have to get approval 
before we can do any type of training, whether there are costs 
incurred or not.
    Mr. Shays. I would think once you did the training you were 
required to do that you have met the test, and then any 
additional training you still have to get approval?
    Mr. McNeil. That is correct, sir.
    Mr. Shays. When you seek to get that approval, do you get 
it?
    Mr. McNeil. Not always. In some cases it takes a very long 
time for it to go up the chain and come back, and in some cases 
it is denied. In some cases our Federal Security Director has 
just said, ``I am just going to do it. I don't care what they 
say. It is easy, it is reasonable, it makes sense. Let's do 
this.''
    Mr. Shays. Do I pronounce your name Broida? Did I 
mispronounce it when I first----
    Mr. Broida. It is Broida, sir.
    Mr. Shays. I apologize.
    Mr. Broida. Yes, what Mr. NcNeil said is certainly true. 
There was a directive from TSA headquarters--I am sorry I don't 
have it with me and I can't quote the date--but it addressed 
the issue of private contractors offering screening outside 
that which is offered by TSA. In sum and substance, it 
basically said we could provide training that was non-security-
related any time we wished and they had no interest in that. 
However, anything that approached security issues or SOP issues 
had to be approved by TSA headquarters by going through the 
FSD.
    In those cases, for example, the IED training involving the 
local law enforcement agency which we instituted. I brought 
that to Commander Bassett, and he approved it on the local 
level and then sent it up for upper TSA approval. I don't know 
whether or not he ever received the official sanction, but, 
fortunately, the Commander said, ``You know, it is important 
training, let's just do it.'' It is a police agency. What is 
wrong with that? We certainly appreciated that.
    Mr. Shays. Thank you.
    Ms. Berrick, it would strike me that they would set up 
general task objectives for the private sector to meet and the 
public sector, and it would strike me that you would then--if 
they wanted to feel comfortable that there was basic training, 
they would say you have to do all of the above. Tell me what 
the logic is for--and I know I probably should have asked the 
previous panel this, but what is the logic for needing that 
approval to teach in addition?
    Ms. Berrick. That probably will be a good question for TSA, 
but just giving my opinion----
    Mr. Shays. Not would be; it would have been.
    Ms. Berrick. It would have been, correct.
    Giving my opinion, I think TSA has mentioned in the past 
that when you look at the authorizing statute for the pilot 
program airports, there is some restriction in that statute 
basically saying it has to meet, at a minimum, TSA standards 
and also the pay and benefits have to be comparable. I think 
they are interpreting that to the strict letter of the law. But 
I believe that, even the way the statute is written, there is 
some flexibility that could be afforded the pilot airports in 
these areas. One of them is what you just mentioned in terms of 
having minimal standards and let the pilots determine how they 
are going to achieve those, with TSA's oversight. That could be 
one way to do it, instead of saying all pilot airports have to 
adhere to this specific program and you can't go beyond that.
    Mr. Shays. There are only five airports we are talking 
about, correct?
    Ms. Berrick. Correct.
    Mr. Shays. So it seems to me they could send a supervisor, 
and if they objected to what was happening, they could note 
that for the record.
    What I would suggest for our staff is that we consider 
writing a letter to--and I would like to think there is someone 
from TSA here now--stating that we think we need--obviously, 
the chairman would have to concur--I am struck by the fact that 
there needs to be a little more flexibility to ultimately 
assess the value of the private sector's participation. So I 
think we will do that. Do you think that would be helpful?
    Mr. DeMell. It would be very helpful. It is a frustration 
that is shared not only on the private contractor side but by 
our individual FSDs.
    Mr. Shays. In other words, that even within airports done 
by TSA that they should be allowed a little bit more 
flexibility?
    Mr. DeMell. In a lot of these areas, yes.
    Mr. Shays. For instance, if LaGuardia wants to do something 
above and beyond, they should be able to do that?
    Mr. DeMell. That is what I am saying.
    Mr. Shays. Nodding the head doesn't get us on the record.
    Mr. DeMell. What I am really saying is our FSD--I can only 
speak for the Kansas City Airport. When I say our FSD is 
frustrated by some of the restrictions as we are, the private 
contractor.
    Mr. Shays. Let me put it in my language. The airport is as 
frustrated as you are that you aren't given the flexibility.
    Mr. DeMell. Correct.
    Mr. Shays. What I am wondering, possibly even give a little 
more flexibility within the public sector, if the folks at 
LaGuardia feel they would like to see a little higher standard 
or a little more flexibility or whatever, would they have the 
capability to see a little bit of--not uniformity--in other 
words, I am thinking intuitively that we want a uniform--we 
want a minimum standard of capability, but if we have even 
within the public sector a desire for an airport to go above 
and beyond, do they have that capability and shouldn't they 
have?
    Mr. DeMell. I think, Mr. Chairman, that was one of the 
ideas behind the public-private partnership, and that was 
something that this partnership should have been able to design 
and implement and put into place to be looked at by the rest of 
the system.
    Mr. Shays. OK. We know we have our work cut out here. It 
seems to me we are not taking advantage of what we wanted to 
have happen.
    Just before we break, Ms. Berrick, I want to ask you, as it 
relates to air cargo--first off, let me understand, in your 
capacity in GAO you oversee Justice and--what aspect of Justice 
do you oversee?
    Ms. Berrick. I am about one of five directors in Homeland 
Security in the Justice team, and I oversee all transportation 
security work, including all the aviation work. So that would 
include air cargo.
    Mr. Shays. And what over in Justice do you oversee?
    Ms. Berrick. My primary focus is aviation and 
transportation security. I do some court and jail work within 
the Justice side.
    Mr. Shays. Talk to me about air cargo. I look at this sheet 
here, the aviation rings of security, and I gather that when 
they talk about airport perimeter and terminal that somehow 
that must include employees that work within the airport but I 
don't see it specifically mentioned. When I see 100 percent 
baggage check, it is like there should be an exclamation point, 
yet I realize that 20 percent of what is in the belly of an 
aircraft is not checked, and that is cargo because cargo 
represents about 20 to 21 percent of what is in the belly of an 
aircraft. Is that correct?
    Ms. Berrick. That is correct.
    Mr. Shays. So help me understand why I should feel 
comforted that 20 percent of the cargo in an airplane--20 
percent of what is in the belly of an aircraft--is not checked. 
Why should I feel comfortable about that?
    Ms. Berrick. The security of air cargo is a vulnerability. 
There is no question about that.
    TSA, the way they are approaching that right now is through 
the known-shipper program which we talked about a little bit 
earlier. They are doing targeted inspections of air cargo. They 
are also investing, I believe, $55 million for 2004 in R&D 
looking at air cargo.
    But, having said all of that, still 10 percent of air cargo 
is not screened, and that is a vulnerability. Given the fact 
that air cargo is on commercial aircraft with traveling 
passengers, that just heightens the concern. But, I agree, it 
is a vulnerability that needs to be addressed.
    Mr. Shays. When we dealt with the vulnerabilities of 
baggage not being checked, we put a deadline on it. What is the 
negative of our putting a deadline on cargo screening for 
passenger planes?
    Ms. Berrick. I think the negative side of that is TSA not 
having the means with which to meet the deadline in terms of 
having the technology in place to do that.
    Mr. Shays. But my understanding is that the luggage--excuse 
me, the cargo on the passenger plane somewhat conforms to what 
is the cargo--what is the baggage. In other words, it is at 
least smaller containers, isn't that correct?
    Ms. Berrick. I think it is of varying sizes. We are not 
specifically looking at the air cargo issue right now. We have 
done some work in the past. But my understanding is it is 
varying sizes.
    Mr. Shays. Guess what? We are going to ask you to do that.
    Ms. Berrick. I will be happy to.
    Mr. Shays. You can't come and testify here that it is a 
vulnerability and then--I realize you have, but it is 
something--I know the chairman is concerned about it.
    Ms. Berrick. As I mentioned, GAO did do some work looking 
at air cargo security about 8 months ago. It is somewhat dated, 
but we did identify air cargo as a vulnerability.
    Mr. Shays. Tell me why I should feel comfortable about what 
we are doing to guarantee--``guarantee'' is a bad word, we 
can't guarantee--but to help protect the traveling public by 
what we do to ascertain the--let me back up. What do we need to 
do to better protect the security of an airplane based on those 
who work on those aircraft and those that move within the 
airport, the employees?
    Ms. Berrick. One way to do that is through strengthening 
background investigations for airport workers, which was done 
after the Aviation and Transportation Security Act was passed.
    Another effort is to focus----
    Mr. Shays. I am asking an unfair question right now. Let me 
first ask it in a way that I think is fair to you. What studies 
have you done--what studies has GAO done to look at security in 
airports as it relates to the area of the airport and the 
employees who work within it?
    Ms. Berrick. We have two ongoing studies right now that 
haven't been completed. They should be completed in the March-
April timeframe. One is looking at perimeter security and 
access control, and specifically we are looking at requirements 
that were spelled out in the Aviation and Transportation 
Security Act and whether or not TSA has complied with those 
requirements. We also have a review looking at the MANPADS 
threats, including what the Department of Homeland Security and 
TSA is doing to protect aircraft from MANPADS and what are some 
countermeasures that could likely be used to protect the 
aircraft. So, in answer to your question, we have two ongoing 
reviews that haven't yet been completed in that area.
    Mr. Shays. Now if you wanted to answer anything more on the 
first question I asked, any recommendations of what needs to be 
done?
    Ms. Berrick. At this point, no, since the review is still 
ongoing, but I believe we will when it is completed.
    Mr. Shays. It will be done by when?
    Ms. Berrick. April 2004.
    Mr. Shays. Let me just ask Mr. DeMell and Mr. NcNeil, you 
are working at two airports, but you must wonder sometimes as 
to the security not related to passengers, the security of the 
people who work there. Do you have a sense and can you make a 
contribution to the discussion as to how secure our airports 
are in terms of our employees and so on? Do you believe that we 
need to make progress there and, if so, do you think we have 
vulnerabilities in any particular area?
    Mr. DeMell. I think we do need to make progress as it 
relates to both cargo and workers who have access.
    Mr. Shays. I guess what I am wondering is, as you seek to 
make sure that the passengers that get on the plane don't 
present a threat, do you sometimes wonder if the employees that 
work at the airport have to go through the same kind of 
screening and do you sometimes question if we may be more 
vulnerable there? That is really what I am asking. If the 
answer is yes, have you thought about what we need to do to 
correct it? First off, I want to know if the answer is yes or 
no.
    Mr. McNeil. The answer for McNeil Security at Rochester 
International is the airport workers go through basically the 
same type of background investigation that our people go 
through in terms of having their fingerprints through the FBI 
and the rest. What really concerns us, though, is, as we check 
baggage that goes on board the plane, someone that comes up to 
the counter, drops off a small package, that same package has 
no screening whatsoever, goes on board the plane. That is what 
really concerns us a lot of the time.
    Mr. Shays. Tell me how that happens? That is not cargo. Is 
it called cargo?
    Mr. Broida. Yes, sir. It is actually defined as cargo. 
Several airlines have programs where, if you need to get 
something to a certain place and it can't be Fed-exed in time, 
you can bring it to an airport and it will be put on a 
scheduled airliner to be taken to whatever that city is. That 
is considered cargo and is not subject to screening.
    As a matter of fact, this came to the fore in Rochester 
when a NcNeil screener saw this occurring and thought that was 
rather bizarre and asked if he could screen it anyway. He 
volunteered to EDT screen it and was told he could not do 
because that was not in the TSA SOP.
    Mr. Shays. Let me get this straight. The passenger who goes 
onto an airplane has to go through your system and their 
baggage is checked. You are saying it is conceivable in some 
airports that someone can come up to the front desk and present 
a package as cargo and not only is it not screened, that when 
you wanted to screen it you were not allowed to screen it 
because it was perceived as not being the luggage of a 
passenger, therefore not your responsibility and therefore you 
did not have the right to look at it? Is that what you are 
saying?
    Mr. Broida. Yes, sir, that is correct.
    Mr. Shays. Have you encountered anything as bizarre as 
that?
    Mr. DeMell. I have not.
    Mr. Shays. Are you aware this may be happening?
    Mr. DeMell. Yes, I am.
    Mr. Shays. That literally someone can come to the airport 
and drop off something as cargo and that it will be put on an 
aircraft and may be not screened?
    Mr. DeMell. As cargo or mail.
    Mr. Shays. Cargo or mail, and it will not be screened?
    Mr. DeMell. Correct.
    Mr. Shays. So you have never asked to have it screened, so 
you never had that experience. But you know as a fact it is put 
on the plane unscreened?
    Mr. DeMell. That is correct.
    Chairman Tom Davis. Mr. Chairman, it is great to get that 
on national television and on the record.
    Mr. Shays. Mr. Chairman, you have the floor.
    Chairman Tom Davis. Ms. Berrick, I know you have said you 
have limited information on screener performance, but based on 
the work that you have done do you have reason to believe the 
current screeners are better, worse, or about the same as 
before September 11?
    Ms. Berrick. We really can't make that conclusion based on 
the information that exists. GAO did look at the passenger 
screening program prior to September 11 when the responsibility 
fell under FAA, and we are currently looking at it right now. 
What we are doing is looking at how TSA measures the 
performance of its passenger screeners, and we are finding 
there is really limited data out there that identifies how well 
their screeners are performing. As a result, it is very 
difficult to make any kind of comparison.
    Surfacely, it looks like there have been lots of 
improvements: The pay and benefits are better, there is less 
turnover, etc. But in terms of concrete data on whether or not 
they are detecting harder-to-spot threat objects, we haven't 
seen that.
    Chairman Tom Davis. Does GAO have an opinion on the current 
staffing levels?
    Ms. Berrick. We have an ongoing review that is looking at 
staffing levels. We reported in September of this year that, 
based on our preliminary assessments, some Federal Security 
Directors did express concerns about staffing levels at their 
airports in terms of having input into the staffing process. We 
are encouraged that TSA has recently hired a contractor to come 
in and assess their staffing model to get a second set of eyes 
looking at it. But staffing is a big concern based on the 
Federal Security Director we spoke with, and we are going to 
continue to look at this as part of our review.
    Chairman Tom Davis. Let me ask the private companies. Mr. 
DeMell, are there any recommendations you would make to TSA 
regarding staffing levels that could create cost savings 
without jeopardizing security?
    Mr. DeMell. Since we haven't been able to participate in 
that process it is difficult, but we think that is an area 
where the private contractor should be allowed to interact with 
the local TSA in developing those staffing standards--not only 
staffing standards but looking at the organizational charts of 
the local TSA organization versus the private contractor, 
looking for overlap in ways to save money where there is a 
duplication of that effort in that end of it as well.
    Chairman Tom Davis. Let me go back to Ms. Berrick. As a 
general rule, are airports able to fully staff their airport 
screener requirements?
    Ms. Berrick. Not always. There are peaks and valleys we 
found in terms of the Federal Security Directors not having the 
staff they need to respond to those peaks and valleys. One of 
the big things initially that the Federal Security Directors 
told us was they would love to hire part-time screeners. 
Recently, TSA has enabled the airports to do that, and that has 
been a big help. But there still is a problem in staffing, 
hiring the part-time screeners and making sure that the 
airports have what they need when they need them, and we are 
continuing to look at that.
    Chairman Tom Davis. OK. Let me ask, what about the TSA 
mobile units? How are those working out?
    Ms. Berrick. I don't have a lot of specific information on 
that. I believe one is deployed to Kansas, one of the PP5 
airports, because there was a shortage there; and I don't have 
much more information on that, other than I know they are in 
use.
    Chairman Tom Davis. OK. Thank you.
    Mr. Shays. Let me close this hearing by just asking, is 
there anything that any of the four of you would like to put on 
the record, anything that you had maybe spent the night 
thinking about that we didn't ask you that needs to be part of 
the record?
    Ms. Berrick. If I could make just one comment, we are 
talking a lot about the five pilot airports. TSA recently hired 
a contractor to assess the performance of the five pilot 
airports. We think it is going to be challenging for that 
contractor to do an assessment because of the lack of 
performance data not only at the five pilot airports but 
throughout all the commercial airports in terms of how well the 
screeners are performing. So that is one thing that we are 
going to be working with TSA in looking at in terms of how this 
contractor is going to be able to assess the performance. Not 
only because there is a lack of data but also because the five 
pilot airports haven't been granted a lot of flexibility. So to 
do a true assessment I think will be a challenge for them.
    Mr. Shays. I am struck by the fact, though, wouldn't it 
have been great if the TSA had allowed for innovation and not 
one-size-fits-all at all the airports so we could even compare 
within the public sector what might work better? Then obviously 
we would have allowed for the private sector to have the 
freedom to do a lot more things and to be corrective. That was 
the whole point, so we could then do an evaluation. It strikes 
me it is almost a study designed to fail because of that based 
on what you are pointing out.
    Mr. Chairman, are we all set?
    Let me again thank all the witnesses and say that this 
hearing is adjourned.
    [Whereupon, at 1:35 p.m., the committee was adjourned.]
    [The prepared statements of Hon. Dan Burton, Hon. Henry A. 
Waxman, Hon. Elijah E. Cummings, and additional information 
submitted for the hearing record follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                   - 

</pre></body></html>
